<html>
<title> - THE DHS CYBERSECURITY MISSION: PROMOTING INNOVATION AND SECURING CRITICAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   THE DHS CYBERSECURITY MISSION: PROMOTING INNOVATION AND SECURING 
                        CRITICAL INFRASTRUCTURE

=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,

                       INFRASTRUCTURE PROTECTION,

                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2011

                               __________

                           Serial No. 112-19

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
72-229                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                    Alan Carroll, Subcommittee Clerk
             Dr. Chris Beck, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Yvette D. Clark, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     3

                               Witnesses

Mr. Sean McGurk, Director, National Cybersecurity and 
  Communications Integration Center, Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Gerry Cauley, President and CEO, North American Electric 
  Reliability Corporation:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Ms. Jane Carlin, Chair, Financial Services Sector Coordinating 
  Council:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Edward Amoroso, Senior Vice President and Chief Security 
  Officer, AT&T:
  Oral Statement.................................................    34
  Prepared Statement.............................................    35


   THE DHS CYBERSECURITY MISSION: PROMOTING INNOVATION AND SECURING 
                        CRITICAL INFRASTRUCTURE

                              ----------                              


                         Friday, April 15, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, McCaul, Meehan, Marino, 
Clarke, and Richardson.
    Mr. Lungren. The Committee on Homeland Security 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    I apologize for being a few minutes late. We had a special 
Republican Conference.
    We are supposed to have votes at 10:15 and then at 11:15 
and then at 12:15. So we will be bopping back and forth between 
those. Actually, they are single votes, I think, so we can come 
right back after that. So I apologize to our panel.
    We have had a slightly different schedule so that we would 
not have interrupted hearings, but today is a little bit of a 
different day. We are only going to vote on visions of the 
budget for this coming year and the next 10 years, and this 
week we get to talk about trillions instead of billions. So it 
is just small votes that we have got today. I am sorry that 
that will take us away, but I do thank you for being here.
    Today, the subcommittee will examine the relationship 
between the Department of Homeland Security and the owners and 
operators of critical infrastructure. What is working well, 
what could be done better, and how to improve in the future.
    So we are meeting today to hear testimony from Sean McGurk, 
the Director of National Cybersecurity and Communications 
Integration Center, or NCCIC--once we start with all these 
initials, it gets confusing, so I will try to stay away from 
that as much as possible--Gerry Cauley, President and CEO of 
North American Electric Reliability Corporation; Jane Carlin, 
Chair of the Financial Services Sector Coordinating Council; 
and Dr. Edward Amoroso, the Senior Vice President and CSO of 
AT&T.
    This is an important hearing, so important I had a nice 
long statement. But because of the time that we have, I will 
have my statement entered for the record and recognize my 
Ranking Minority Member of the subcommittee, the gentlelady 
from New York, Ms. Clarke, for any statement she may have.
    [The statement of Mr. Lungren follows:]
            Prepared Statement of Chairman Daniel E. Lungren
                             April 15, 2011
    Welcome to the second in our series of cybersecurity hearings. 
Today's hearing will focus on ``the Department of Homeland Security's 
Cybersecurity Mission.''
    Homeland Security Presidential Directive 7, issued on December 17, 
2003 outlines our National policy for Federal departments and agencies 
to partner with the private sector to identify and prioritize United 
States critical infrastructure and key resources and to protect them 
from terrorist attacks. The Secretary of Homeland Security was given 
the responsibility for ``coordinating the overall National effort to 
enhance the protection of the critical infrastructure,'' whether owned 
and operated by the public or private sector. With the private sector 
owning more than 80% of the Nation's critical infrastructure, the DHS-
Private Sector relationship is crucial.
    As stated in our previous subcommittee hearing on March 16, 
information networks and computer systems face a combination of known 
and unknown vulnerabilities, strong and rapidly expanding adversary 
capabilities, and a lack of comprehensive threat and vulnerability 
awareness. A successful attack on our power grid or our communications 
networks could not only cripple our economy but threaten our National 
security.
    Under current law the vast majority of critical infrastructure fall 
outside the Department's direct cybersecurity regulatory authority. 
Under the Homeland Security Act of 2002, the Department was authorized 
to provide, upon request, analysis and warnings related to threats and 
crises management support to private sector owners and operators of 
critical information systems. They can also provide technical 
assistance to the private sector with respect to emergency recovery 
plans when responding to major failures of critical information 
systems. The Department does not have the ability to require the 
private sector use of any particular cybersecurity processes or tools. 
In this environment of ever-changing technology and innovation, I 
believe this is sound policy.
    It is important to note that just because the Department can not 
directly regulate the cybersecurity requirements of various sectors 
that the private sector is completely unregulated. The electric power 
sector has had mandatory cybersecurity standards in place since 2008 
and Sarbanes Oxley Act requires all publically traded companies certify 
that they have proper internal controls in place on their financial 
accounting systems. This requirement, in essence, equates to requiring 
proper cybersecurity in their IT/Finance systems.
    Without direct regulatory authority, the Department exercises much 
of its responsibility for securing private critical infrastructure as a 
coordinating agent. The Department has established a number of 
cybersecurity functions and services to help in its role as 
coordinator. The National Cybersecurity and Communications Integration 
Center (NCCIC) enables the Department to bring together its Federal 
partners as well as members of the private sector to integrate 
information and provide the focus of cybersecurity operations for the 
entire Federal Government. I was privileged to be invited to the 
ribbon-cutting ceremony for this cybersecurity and communications 
integration center which we all hope will become the model for a 
successful public-private cybersecurity partnership.
    The public-private partnership remains a key part of the Nation's 
efforts to secure and protect its critical cyber-reliant 
infrastructure. While criticized by some, it is still evolving since 
its inception a decade ago. Because of the leadership of NPPD Under 
Secretary Rand Beers and Deputy Secretary Phillip Reitinger, the 
Department has strategically positioned cybersecurity resources and 
assets in an effort to develop a more trusted and mutually beneficial 
public-private partnership that is needed to defend cyberspace. Without 
ownership, partnership is the next best thing for promoting 
cybersecurity and protecting our critical infrastructure. If properly 
developed and implemented, the public-private partnership cybersecurity 
model can be leveraged to improve the culture of security and the 
willingness of the private sector to make the necessary investments to 
secure their critical infrastructure.
    With all this cyber expertise, is the Department making a real 
difference in defending critical infrastructure? Are they protecting 
Government and private sector cyber space and responding effectively to 
cyber attacks? Are they assisting the private sector in detecting, 
defending, and recovering from cyber attack? Is the Department making 
available to its partners the critical threat information they need to 
protect their networks?
    Today we will hear from the Homeland Security Department and a 
number of key economic sectors, whose critical infrastructure is vital 
to maintaining our robust economy, on how this public-private 
partnership is progressing.
    I now recognize the Ranking Member Ms. Clarke for her opening 
statement.

    Ms. Clarke. Thank you very much.
    Good morning and thanks to all of our witnesses for 
appearing before us today. I would like to thank you, Chairman 
Lungren, for holding our second hearing on cybersecurity this 
session and for your intention to move expeditiously on what I 
know we both recognize as a critical issue. I know Mr. Lungren 
takes this responsibility as seriously as I do, and I look 
forward to partnering with him again over these 2 years to 
ensure the safety and security of the American people, American 
businesses, American infrastructure, and the American way of 
life.
    Today's hearing will focus on our critical infrastructure 
sectors, their cybersecurity posture, and the DHS role in 
helping them to be as secure and simultaneously as open and as 
efficient as possible.
    We rely on information technology in every aspect of our 
lives, from our electric grid, financial and communication 
systems, and Government functions, to name just a few that our 
witnesses here today represent. Interconnected computers and 
networks have led to amazing developments in our society. 
Increased productivity, knowledge, services, and revenues are 
all benefits generated by our modern, networked world.
    But in our rush to network everything, few stop to consider 
the security ramifications of this new world we are creating; 
and so we find ourselves in a very vulnerable situation today. 
As I stated at our last hearing, too many vulnerabilities exist 
on too many critical networks which are exposed to too many 
skilled attackers who can steal from or damage too many of our 
systems. Unfortunately, to this day, too few people are even 
aware of these dangers, and fewer still are doing anything 
about it.
    This committee will continue to discuss and examine these 
issues in an attempt to raise awareness of the problems we 
face, and we hope to identify and implement practical and 
effective solutions. There is a very real and significant 
threat to our National and economic security that we now face 
in cyberspace, and we must do something equally real and 
significant to meet this challenge.
    As I noted at our hearing last month, we are expecting that 
this committee is eager to see a National cybersecurity 
strategy from the White House to be released very soon. I also 
stated at our last hearing that the Department is finalizing 
its National security incident response plan and will also 
include a cybersecurity strategy, as called for in the 2010 
Quadrennial Homeland Security Review.
    Mr. McGurk I hope to hear some good news from you on these 
items, because we can't keep waiting for these things. The 
Congress is interested in moving legislation to afford DHS the 
authority it needs to protect the dot-gov domain and critical 
infrastructures in the private sectors. Hopefully, we are 
downplaying these Government shutdown games here in Congress, 
and we will get on to the business that our constituents 
elected us to do.
    This cybersecurity issue is complicated, and no one entity 
or approach will work. I firmly believe that the U.S. 
Government and the private sector must be full partners in this 
effort; and both must accept their share of burden, 
responsibility, and cost of our combined security.
    The intention behind this hearing is to focus on the 
protection of the critical infrastructures that sustain our 
lives and our economy. These infrastructures are under constant 
attack. Cybercrime alone costs this country billions of dollars 
a year. We know that our Government networks are attacked tens 
of thousands of times per day, and private sector networks are 
attacked even more often. We know that our critical 
infrastructures are already compromised and penetrated. We need 
to absorb this information, get up to speed quickly, and move 
forward to address this issue. We have to start protecting 
ourselves before an attack big enough to cause irreparable 
damage is carried out.
    To the witnesses appearing before us today, I thank you for 
being here, and I welcome your thoughts on the issues before 
us, including what you think an effective National 
cybersecurity policy should look like and especially the 
critical details needed to make this public-private partnership 
work. Chairman Lungren and I intend for this subcommittee as 
well as the full committee to play a leading role in shaping 
our National cyber posture in the years to come.
    Finally, I would like to thank Dr. Chris Beck for his hard 
work on behalf of this subcommittee. Dr. Beck has worked 
tirelessly on chemical security legislation. He will be leaving 
the subcommittee and will be missed.
    Thank you, Mr. Chairman; and I yield back.
    Mr. Lungren. Thank you very much.
    I appreciate the comments, and I would echo the statements 
that you made about Dr. Beck. I know he will still be around in 
town, and we will be able to see him.
    Other Members of the committee are reminded that their 
opening statements may be submitted for the record.
    We are now pleased to have a very distinguished panel of 
witnesses before us on this important topic.
    Sean McGurk has over 32 years of experience in advanced 
systems operations and information systems security. He joined 
DHS in 2008 after a full career in the Navy. He was named 
Director of the Control System Security Program and led the 
Industrial Control Systems Computer Emergency Response Team 
prior to leading NCCIC. NCCIC is a 24-by-7 integrated 
cybersecurity and communications operation center, providing 
indications and warnings of incidents through cross-domain 
situational awareness. It is a hub of information sharing 
amongst various Government agencies as well as private-sector 
stakeholders.
    Gerry Cauley is President and Chief Executive Officer of 
the North American Electric Reliability Corporation. 
Previously, he served as President and Chief Executive Officer 
of the SERC Reliability Corporation, a nonprofit corporation 
responsible for promoting and assessing the reliability and 
critical infrastructure protection of the bulk power system in 
16 southeastern and central States.
    Prior to that, Mr. Cauley worked for NERC for 10 years in 
positions of increasing responsibility, ultimately as Vice 
President and Director of Standards. He was instrumental in 
preparing NERC's application to become the electric reliability 
organization and spearheaded their development of an initial 
set of standards to ensure the reliability of the bulk power 
system in North America.
    He is also a lead investigator of the August, 2003, 
northeast blackout and coordinated all aspects of the NERC Y2K 
program, supervising the reporting and readiness of 3,100 
electric organizations in the United States and Canada.
    Jane D. Carlin, Chair of the Financial Services Sector 
Coordinating Council for Critical Infrastructure Protection and 
Homeland Security. But in her spare time she is Managing 
Director of Morgan Stanley and Global Head of Operational Risk 
Management, Business Continuity, Information Security, and Risk 
and Insurance Management.
    Ms. Carlin has concentrated on legal and risk issues in 
banking and investment banking related to international and 
domestic securities, derivatives, and commodities as well as 
foreign exchange. She received her J.D. from Benjamin Cardoza 
School of Law and her B.A. from the State University of New 
York at Stony Brook.
    Dr. Edward Amoroso is presently Senior Vice President and 
Chief Security Officer for AT&T, where he is directly 
responsible for managing the day-to-day information, computer, 
and network security protection of AT&T's vast global 
infrastructure. He and his team of security engineers, 
developers, researchers, and consultants design and manage all 
security policy, security regulatory issues, scanning, 
firewall, intrusion detection, data fusion, anti-virus, anti-
spam, instant response, emergency response, and other 
protection systems for the corporation and its customers. He 
also directs the design and development of AT&T's rich 
portfolio of managed and customized security services for 
business and Government clients.
    We would ask each of you to try to limit your remarks to 
about 5 minutes. We have your prepared remarks. They will be 
entered in as a part of the record.
    As I say, we probably will have to break and go and vote 
and then come back. I am going to see if we can get the opening 
statements finished before we have to go vote.
    So, Mr. McGurk, you are asked to please give us your best 
shot for 5 minutes.

STATEMENT OF SEAN MCGURK, DIRECTOR, NATIONAL CYBERSECURITY AND 
   COMMUNICATIONS INTEGRATION CENTER, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. McGurk. Thank you Chairman Lungren, Ranking Member 
Clarke, and distinguished Members of the committee. My name is 
Sean McGurk, and I thank you for those kind opening words and 
introduction.
    I also thank you for inviting me to be part of this very 
distinguished panel of experts to discuss the challenges 
associated with innovation and securing critical 
infrastructure.
    Recently, Deputy Under Secretary Reitinger testified before 
this panel, and the Department greatly appreciates the support 
and the guidance that we have been receiving in completing our 
essential mission.
    As several of the distinguished Members of the committee 
have already mentioned, the cyber environment is not a 
homogenous environment under a single department, agency, or 
private-sector entity. The National Infrastructure Protection 
Plan identifies the 18 sectors of the critical infrastructure, 
each being unique and diverse. In fact, in many facilities, two 
operating plants under the same control of an organization have 
completely different network environments. We rely on these 
continuously available services for our vast way of life and 
the interconnected critical infrastructure to sustain those. 
Successful cyberattacks against these systems could potentially 
result in a physical damage or loss of life.
    We face many challenges--strong and rapidly expanding 
adversary capabilities, a lack of comprehensive threat and 
vulnerability awareness--and in these efforts we must support 
our private-sector partners in securing the systems and 
themselves against these malicious activities.
    The Government does not have all the answers, so we must 
work closely with the private sector to ensure that we have 
identified the vulnerabilities and the risks to the critical 
infrastructure. There is no one size fits all. There is no 
cyber Maginot Line that will enable us to provide security 
across the board.
    What I have learned in my experience both in the United 
States Navy and as a member of the Department in over 34 years, 
it is not all about 10-pound brains or bigger guards, gates, 
and guns that gets the job done. It is about involving a very 
broad audience and sharing information and building a 
collective body of knowledge. We must leverage the Government's 
expertise and our access to information, including classified 
data, along with industry-specific needs, capabilities, and 
timelines. Each partner has a role to play and a unique 
capability that adds value to the team.
    In a recent example involving two-factor authentication, we 
worked closely with our law enforcement partners to identify 
and hopefully potentially prosecute those responsible. We 
worked with the intelligence community and the military to 
attribute the activity and also to provide defensive capability 
and potential pursuit.
    The Department of Homeland Security's primary focus is on 
mitigation and risk protection of systems, working closely with 
the private sector. In this particular example, we have 
representatives from the financial sector, the communications 
sector, the energy sector, and the IT sector working on a broad 
mitigation strategy to aggressively address those challenges. 
We are looking to prepare, prevent, respond, recover, and 
restore in the Department's role.
    Coordinating a National response under the National cyber 
incident response plan enables us to bring these private-sector 
partners to the table and their subject matter expertise to 
determine the ``what'' and the ``how'' to protect these 
networks and not necessarily worry about the ``who'' and the 
``why'' until much later.
    The NCCIC closely works with all Government agencies and 
the private sector through our partnership model. We have 
representatives from the Communications Information Sharing and 
Analysis Center, along with companies such as AT&T. The IT, 
ISAC, and the financial services sector are all physically 
represented on the watch floor. We are finalizing our agreement 
with the North American Electric Reliability Corporation and 
the energy sector ISAC to have full-time support on the watch 
floor as well.
    In addition, working with our State, local, Tribal, and 
territorial partners through the multi-State Information 
Sharing and Analysis Center, we can virtually reach out to each 
of the States and localities to ensure that they are fully 
aware of the cyber vulnerabilities and risk mitigation 
strategies that are being developed.
    In conclusion, within our current legal authorities we 
continue to engage, collaborate, and provide analysis, 
vulnerability, and mitigation assistance to the private sector. 
We have the experience and the expertise in dealing with the 
private sector in planning steady state and crisis scenarios. 
In support of that we deploy numerous incident response and 
assessment teams that enable us to help prevent, prepare, and 
recover from these cyber impacts.
    Finally, we work closely with the private sector and our 
interagency partners in law enforcement and intelligence to 
provide a full complement and capabilities for preparation for 
and in response to significant cyber events.
    Chairman Lungren, Ranking Member Clarke, and distinguished 
Members of the subcommittee, let me conclude in reiterating 
that I look forward to exploring the opportunities to support 
this mission and collaborate with the subcommittee and my 
colleagues in the public and private sectors.
    Thank you again for this opportunity, and I would be happy 
to stand by and answer any of your questions.
    [The statement of Mr. McGurk follows:]
                   Prepared Statement Sean P. McGurk
                             April 15, 2011
                              introduction
    Chairman Lungren, Vice Chairman Walberg, Ranking Member Clarke, and 
distinguished Members of the subcommittee, it is a pleasure to appear 
before you today to discuss the Department of Homeland Security's (DHS) 
cybersecurity mission. Specifically, I will discuss the Department's 
cybersecurity mission as it relates to critical infrastructure and our 
coordination of this mission with the private sector.
    Deputy Under Secretary Philip Reitinger recently testified before 
this subcommittee, and I would like to reiterate the Department's 
desire to work more with you to convey the relevance of cybersecurity 
to average Americans. Increasingly, the services we rely on in our 
daily life, such as water distribution and treatment, electricity 
generation and transmission, health care, transportation, and financial 
transactions depend on an underlying information technology and 
communications infrastructure. Cyber threats put the availability and 
security of these and other services at risk.
                 the current cybersecurity environment
    The United States faces a combination of known and unknown 
vulnerabilities, strong and rapidly expanding adversary capabilities, 
and a lack of comprehensive threat and vulnerability awareness. Within 
this dynamic environment, we are confronted with threats that are more 
targeted, more sophisticated, and more serious.
    Sensitive information is routinely stolen from both Government and 
private sector networks, undermining confidence in our information 
systems and the sharing of information. As bad as the loss of precious 
National intellectual capital is, we increasingly face threats that are 
even greater. We face threats that could significantly compromise the 
accessibility and reliability of our information infrastructure.
    Malicious actors in cyberspace, including nation states, terrorist 
networks, organized criminal groups, and individuals located here in 
the United States, have varying levels of access and technical 
sophistication, but all have nefarious intent. Several are capable of 
targeting elements of the U.S. information infrastructure to disrupt, 
or destroy systems upon which we depend. Motives include intelligence 
collection, intellectual property or monetary theft, or disruption of 
commercial activities, among others. Criminal elements continue to show 
increasing levels of sophistication in their technical and targeting 
capabilities and have shown a willingness to sell these capabilities on 
the underground market. In addition, terrorist groups and their 
sympathizers have expressed interest in using cyberspace to target and 
harm the United States and its citizens. While some have commented on 
terrorists' own lack of technical abilities, the availability of 
technical tools for purchase and use remains a potential threat.
    Malicious cyber activity can instantaneously result in virtual or 
physical consequences that threaten National and economic security, 
critical infrastructure, public health and welfare. Similarly, stealthy 
intruders can lay a hidden foundation for future exploitation or 
attack, which they can then execute at their leisure--and at their time 
of greatest advantage. Securing cyberspace requires a layered security 
approach across the public and private sectors.
    We need to support the efforts of our private sector partners to 
secure themselves against malicious activity in cyberspace. 
Collaboratively, public and private sector partners must use our 
knowledge of information technology systems and their interdependencies 
to prepare to respond should defensive efforts fail. This is a serious 
challenge, and DHS is continually making strides to improve the 
Nation's overall operational posture and policy efforts.
                         cybersecurity mission
    No single technology--or single Government entity--alone can 
overcome the cybersecurity challenges our Nation faces. Consequently, 
the public and private sectors must work collaboratively. Cybersecurity 
must start with informed users taking necessary precautions and extend 
through a coordinated effort among the private sector, including 
critical infrastructure owners and operators, and the extensive 
expertise that lies across coordinated Government entities. In addition 
to leading the effort to secure Federal Executive Branch civilian 
departments and agencies' unclassified networks, the National 
Protection and Programs Directorate (NPPD) within DHS is responsible 
for the following key cybersecurity missions:
  <bullet> Providing technical expertise to the private sector and 
        critical infrastructure and key resources (CIKR) owners and 
        operators--whether private sector, State, or municipality-
        owned--to bolster their cybersecurity preparedness, risk 
        assessment, mitigation and incident response capabilities;
  <bullet> Raising cybersecurity awareness among the general public; 
        and
  <bullet> Coordinating the National response to domestic cyber 
        emergencies.
    In a reflection of the bipartisan nature with which the Federal 
Government continues to approach cybersecurity, President Obama 
determined that the Comprehensive National Cybersecurity Initiative 
(CNCI) and its associated activities should continue to evolve as key 
elements of the broader National cybersecurity efforts. These CNCI 
initiatives play a central role in achieving many of the key 
recommendations of the President's Cyberspace Policy Review: Assuring a 
Trusted and Resilient Information and Communications Infrastructure. 
Following the publication of those recommendations in May 2009, DHS and 
its components developed a long-range vision of cybersecurity for the 
Department and the Nation's homeland security enterprise, which is 
encapsulated in the Quadrennial Homeland Security Review (QHSR). The 
QHSR provides an overarching framework for the Department and defines 
our key priorities and goals. One of the five priority areas detailed 
in the QHSR is safeguarding and securing cyberspace. Within the 
cybersecurity mission area, the QHSR identifies two overarching goals: 
To help create a safe, secure, and resilient cyber environment and to 
promote cybersecurity knowledge and innovation.
    In alignment with the QHSR, Secretary Napolitano consolidated many 
of the Department's cybersecurity efforts under NPPD. The Office of 
Cybersecurity and Communications (CS&C), a component of NPPD, focuses 
on reducing risk to the communications and information technology 
infrastructures and the sectors that depend upon them, as well as 
enabling timely response and recovery of these infrastructures under 
all circumstances. The functions and mission of the National 
Cybersecurity Center (NCSC) are now supported by CS&C. These functions 
include coordinating operations among the six largest Federal cyber 
centers. CS&C also coordinates National security and emergency 
preparedness communications planning and provisioning for the Federal 
Government and other stakeholders. CS&C comprises three divisions: The 
National Cyber Security Division (NCSD), the Office of Emergency 
Communications, and the National Communications System. It also houses 
the National Cybersecurity and Communications Integration Center 
(NCCIC)--DHS' 24-hour cyber and communications watch and warning 
center. Within NCSD, the United States Computer Emergency Readiness 
Team (US-CERT) is working more closely than ever with our public and 
private sector partners to share what we learn from EINSTEIN 2, a 
Federal executive agency computer network intrusion detection system, 
to deepen our collective understanding, identify threats 
collaboratively, and develop effective security responses. EINSTEIN 
enables us to respond to warnings and other indicators of operational 
cyber attacks, and we have many examples showing that this program 
investment has paid for itself several times over.
    Teamwork--ranging from intra-agency to international 
collaboration--is essential to securing cyberspace. Together, we can 
leverage resources, personnel, and skill sets that are needed to 
achieve a more secure and reliable cyberspace. Although DHS leads 
significant cybersecurity mission activities in the public sector, I 
will focus the rest of my testimony on private sector coordination.
    The NCCIC works closely with Government at all levels and with the 
private sector to coordinate the integrated and unified response to 
cyber and communications incidents impacting homeland security. 
Numerous DHS components, including US-CERT, the Industrial Control 
Systems Cyber Emergency Response Team (ICS-CERT), and the National 
Coordinating Center for Telecommunications, are collocated in the 
NCCIC. Also present in the NCCIC are other Federal partners, such as 
the Department of Defense (DoD) and members of the law enforcement and 
intelligence communities. The NCCIC also physically collocates Federal 
staff with private sector and non-governmental partners. Currently, 
representatives from the Information Technology and Communications 
Sectors and the Multi-State Information Sharing and Analysis Center are 
located on the NCCIC watch floor. We are also finalizing steps to add 
representatives from the Banking and Finance Sector, as well as the 
Energy Sector.
    By leveraging the integrated operational capabilities of its member 
organizations, the NCCIC serves as an ``always on'' cyber incident 
response and management center, providing indications and warning of 
imminent incidents, and maintaining a national cyber ``common operating 
picture.'' This facilitates situational awareness among all partner 
organizations, and also creates a repository of all reported 
vulnerability, intrusion, incident, and mitigation activities. The 
NCCIC also serves as a National point of integration for cyber 
expertise and collaboration, particularly when developing guidance to 
mitigate risks and resolve incidents. Finally, the unique and 
integrated nature of the NCCIC allows for a scalable and flexible 
coordination with all interagency and private sector staff during 
steady-state operations, in order to strengthen relationships and 
solidify procedures as well as effectively incorporate partners as 
needed during incidents.
    NCSD collaborates with private sector stakeholders to conduct risk 
assessments and mitigate vulnerabilities and threats to information 
technology assets and activities affecting the operation of private 
sector critical infrastructures. NCSD also provides cyber threat and 
vulnerability analysis, early warning, incident response assistance, 
and exercise opportunities for private sector constituents. To that 
end, NCSD carries out the majority of DHS' non-law enforcement 
cybersecurity responsibilities.
                    national cyber incident response
    The President's Cyberspace Policy Review called for ``a 
comprehensive framework to facilitate coordinated responses by 
government, the private sector, and allies to a significant cyber 
incident.'' DHS coordinated the interagency, State and local 
government, and private sector working group that developed the 
National Cyber Incident Response Plan (NCIRP). The NCIRP provides a 
framework for effective incident response capabilities and coordination 
among Federal agencies, State and local governments, the private 
sector, and international partners during significant cyber incidents. 
It is designed to be flexible and adaptable to allow synchronization of 
response activities across jurisdictional lines. In September 2010, DHS 
hosted Cyber Storm III, a response exercise in which members of the 
domestic and international cyber incident response community addressed 
the scenario of a coordinated cyber event. During the event, the NCIRP 
was activated and its incident response framework was tested. Based on 
observations from the exercise, the plan is in its final stages of 
revision prior to publication. Cyber Storm III also tested the NCCIC 
and the Federal Government's full suite of cybersecurity response 
capabilities.
    providing technical operational expertise to the private sector
    DHS has significant cybersecurity capabilities, and we are using 
those capabilities to great effect as we work collaboratively with the 
private sector to protect the Nation's CIKR. We engage with the private 
sector on a voluntary basis to provide onsite analysis, mitigation 
support, and assessment assistance. Over the past year, we have 
repeatedly demonstrated our ability to materially and expeditiously 
assist companies with cyber intrusion mitigation and incident response. 
We are able to do so through our trusted and close relationships with 
private sector companies as well as Federal departments and agencies. 
Finally, our success in assisting the private sector is due in no small 
part to our dedication to properly and fully addressing privacy, civil 
rights, and civil liberties in all that we do. Initiating technical 
assistance with a private company to provide analysis and mitigation 
advice is a sensitive endeavor--one that requires trust and strict 
confidentiality. Within our analysis and warning mission space, DHS has 
a proven ability to provide that level of trust and confidence in the 
engagement. Our efforts are unique among Federal agencies' capabilities 
in that DHS focuses on civilian computer network defense and protection 
rather than law enforcement, military, or intelligence functions. DHS 
engages to mitigate the threat to the network to reduce future risks.
    Our approach requires vigilance and a voluntary public/private 
partnership. We are continuing to build our capabilities and 
relationships because the cyber threat trends are more sophisticated 
and frequent.
    Over the past year, we established the NCCIC and are adding staff 
to that center, both from existing DHS personnel and from partner 
organizations in the public and private sectors. More broadly, we are 
continuing to hire more cybersecurity professionals and increasing 
training availability to our employees. The NCIRP is operational, and 
we continue to update and improve it with input from senior 
cybersecurity leaders. We will be releasing the NCIRP publicly in the 
near future. We are executing within our current mission and 
authorities now, receiving and responding to substantial netflow data 
from our intrusion detection technologies deployed to our Federal 
partners, and leveraging that data to provide early warnings and 
indicators across Government and industry. With our people, processes, 
and technology, we stand ready to execute the responsibilities of the 
future.
    In addition to specific mitigation work we conduct with individual 
companies and sectors, DHS looks at the interdependencies across 
critical infrastructure sectors for a holistic approach to providing 
our cyber expertise. For example, the Electric, Nuclear, Water, 
Transportation, and Communications Sectors support functions across all 
levels of government including Federal, State, local, and Tribal 
governments, and the private sector. Government bodies and 
organizations do not inherently produce these services and must rely on 
private sector organizations, just as other businesses and private 
citizens do. Therefore, an event impacting control systems has 
potential implications at all these levels, and could also have 
cascading effects upon all 18 sectors. For example, Water and 
Wastewater Treatment, Chemical, and Transportation sectors depend on 
the Energy Sector, and failure in one of these sectors could 
subsequently affect Government and private sector operations.
    US-CERT also collaborates, provides remote and on-site response 
support, and shares information with Federal, State, and local 
governments; critical infrastructure owners and operators; and 
international partners to address cyber threats and develop effective 
security responses.
    DHS provides on-site and remote incident response assistance to its 
public and private sector partners. Upon notification of a cyber 
incident, ICS-CERT and/or US-CERT can perform a preliminary diagnosis 
to determine the extent of the compromise. At the partner's request and 
when appropriate, either ICS-CERT or US-CERT can deploy a team to meet 
with the affected organization to review network topology, identify 
infected systems, create image files of hard drives for analysis, and 
collect other data as needed to perform thorough follow-on analysis. 
Both ICS-CERT and US-CERT can provide mitigation strategies, advise 
asset owners and operators on their efforts to restore service, and 
provide recommendations for improving overall network and control 
systems security.
    An incident in early 2010 illustrates the incident response support 
that DHS provides. In this case, an employee of a company had attended 
an industry event and used an instructor's flash drive to download 
presentation materials to the company's laptop. The flash drive was 
infected with the Mariposa botnet, unbeknownst to the event organizer. 
When the employee returned to the work location and used the laptop, 
the virus quickly spread to nearly 100 systems. US-CERT and ICS-CERT 
had already been tracking a trend of removable media involved in 
malware infections, and, on request, deployed a team to the company's 
location to help diagnose the malware and identify those infected 
systems.
    The team spent 2 days with the company reviewing the incident 
details, network topology, and the company's control systems 
architecture to identify systems of interest. The company was 
ultimately able to leverage all of the information to contain the 
infection and remove the malware from the infected systems. ICS-CERT 
and US-CERT provided follow-on reporting, mitigation measures, and 
access to additional resources through the US-CERT secure portal.
    US-CERT's operations are complemented in the arena of industrial 
control systems by ICS-CERT. The term ``control system'' encompasses 
several types of systems, including Supervisory Control and Data 
Acquisition, process control, and other automated systems that are 
found in the industrial sectors and critical infrastructure. These 
systems are used to operate physical processes that produce the goods 
and services that we rely upon, such as energy, drinking water, 
emergency services, transportation, postal and shipping, and public 
health. Control systems security is particularly important because of 
the inherent interconnectedness of the CIKR sectors and their 
dependence on one another.
    As such, assessing risk and effectively securing industrial control 
systems are vital to maintaining our Nation's strategic interests, 
public safety, and economic well-being. A successful cyber attack on a 
control system could result in physical damage, loss of life, and 
cascading effects that could disrupt services. DHS recognizes that the 
protection and security of control systems is essential to the Nation's 
overarching security and economy. In this context, as an example of 
many related initiatives and activities, DHS--in coordination with the 
Department of Commerce's National Institute of Standards and Technology 
(NIST), the Department of Energy, and DoD--has provided a forum for 
researchers, subject matter experts and practitioners dealing with 
cyber-physical systems security to assess the current state of the art, 
identify challenges, and provide input to developing strategies for 
addressing these challenges. Specific infrastructure sectors considered 
include energy, chemical, transportation, water and wastewater 
treatment, health care and public health, and commercial facilities. A 
2010 published report of findings and recommendations is available upon 
request.
    An additional real-world threat emerged last year that 
significantly changed the landscape of targeted cyber attacks on 
industrial control systems. Malicious code, dubbed Stuxnet, was 
detected in July 2010. DHS analysis concluded that this highly complex 
computer worm was the first of its kind, written to specifically target 
mission-critical control systems running a specific combination of 
software and hardware.
    ICS-CERT analyzed the code and coordinated actions with critical 
infrastructure asset owners and operators, Federal partners, and 
Information Sharing and Analysis Centers. Our analysis quickly 
uncovered that sophisticated malware of this type potentially has the 
ability to gain access to, steal detailed proprietary information from, 
and manipulate the systems that operate mission-critical processes 
within the Nation's infrastructure. In other words, this code can 
automatically enter a system, steal the formula for the product being 
manufactured, alter the ingredients being mixed in the product, and 
indicate to the operator and the operator's anti-virus software that 
everything is functioning normally.
    To combat this threat, ICS-CERT has been actively analyzing and 
reporting on Stuxnet since it was first detected in July 2010. To date, 
ICS-CERT has briefed dozens of Government and industry organizations 
and released multiple advisories and updates to the industrial control 
systems community describing steps for detecting an infection and 
mitigating the threat. As always, our goal is to balance the need for 
public information sharing while protecting the information that 
malicious actors may exploit. DHS provided the alerts in accordance 
with its responsible disclosure processes.
    The purpose and function for responsible disclosure is to ensure 
that DHS executes its mission of mitigating risk to critical 
infrastructure, not necessarily to be the first to publish on a given 
threat. For example, ICS-CERT's purpose in conducting the Stuxnet 
analysis was to ensure that DHS understood the extent of the risks so 
that they could be mitigated. After conducting in-depth malware 
analysis and developing mitigation steps, we were able to release 
actionable information that benefited our private sector partners.
    Looking ahead, the Department is concerned that attackers could use 
the increasingly public information about the code to develop variants 
targeted at broader installations of programmable equipment in control 
systems. Copies of the Stuxnet code, in various different iterations, 
have been publicly available for some time now. ICS-CERT and the NCCIC 
remain vigilant and continue analysis and mitigation efforts of any 
derivative malware.
    ICS-CERT will continue to work with the industrial control systems 
community to investigate these and other threats through malicious code 
and digital media analysis, on-site incident response activities, and 
information sharing and partnerships.
              interagency and public-private coordination
    Overcoming new cybersecurity challenges requires a coordinated and 
focused approach to better secure the Nation's information and 
communications infrastructures. President Obama's Cyberspace Policy 
Review reaffirms cybersecurity's significance to the Nation's economy 
and security. Establishment of a White House Cybersecurity Coordinator 
position solidified the priority the administration places on improving 
cybersecurity.
    No single agency has sole responsibility for securing cyberspace, 
and the success of our cybersecurity mission relies on effective 
communication and critical partnerships. Many Government players have 
complementary roles as well as unique capabilities--including DHS, the 
intelligence community, DoD, the Department of Justice, the Department 
of State, and other Federal agencies--and they require coordination and 
leadership to ensure effective and efficient execution of our 
collective cyber missions. The creation of a senior-level cyber 
position within the White House ensures coordination and collaboration 
across Government agencies.
    Private industry owns and operates the vast majority of the 
Nation's critical infrastructure and cyber networks. Consequently, the 
private sector plays an important role in cybersecurity, and DHS has 
initiated several pilot programs to promote public-private sector 
collaboration. In its engagement with the private sector, DHS 
recognizes the need to avoid technology prescription and to support 
innovation that enhances critical infrastructure cybersecurity. DHS, 
through the National Infrastructure Protection Plan partnership 
framework, has many years of experience in private sector 
collaboration, leveraging our relationships in both the physical and 
cybersecurity protection areas. For example, the Office of 
Infrastructure Protection and the National Cyber Security Division 
partnered with the chemical industry to publish the Roadmap to Secure 
Industrial Control Systems in the Chemical Sector in 2009, available at 
www.us-cert.gov. To meet the first set of milestones set forth in this 
10-year plan, industry, in partnership with DHS, developed a suite of 
control systems security awareness materials that will be shared widely 
within the Chemical Sector this summer.
    DHS engages with the private sector on a voluntary basis in 
accordance with our responsibilities under the Homeland Security Act. 
We stand by to assist our private sector partners upon their request, 
and thus far have been able to do so successfully due to our technical 
capabilities, existing private sector relationships, and expertise in 
matters relating to privacy and civil rights and civil liberties.
    In February 2010, DHS, DoD, and the Financial Services Information 
Sharing and Analysis Center (FS-ISAC) launched a pilot designed to help 
protect key critical networks and infrastructure within the financial 
services sector by sharing actionable, sensitive information. Based on 
lessons learned from the pilot, DHS is developing comprehensive 
information-sharing and incident response coordination processes with 
CIKR sectors, leveraging capabilities from within DHS and across the 
response community, through the NCCIC.
    In June 2010, DHS implemented the Cybersecurity Partner Local 
Access Plan, which allows security-cleared owners and operators of 
CIKR, as well as State technology officials and law enforcement 
officials, to access secret-level cybersecurity information and video 
teleconference calls via State and major urban area fusion centers. In 
November 2010, DHS signed an agreement with the Information Technology 
Information Sharing and Analysis Center (IT-ISAC) to embed a full-time 
IT-ISAC analyst and liaison to DHS at the NCCIC, part of the on-going 
effort to collocate private sector representatives alongside Federal 
and State government counterparts. The IT-ISAC consists of information 
technology stakeholders from the private sector and facilitates 
cooperation among members to identify sector-specific vulnerabilities 
and risk mitigation strategies.
    In July 2010, DHS worked extensively with the White House on the 
publication of a draft National Strategy for Trusted Identities in 
Cyberspace, which seeks to secure the digital identities of 
individuals, organizations, services, and devices during on-line 
transactions, as well as the infrastructure supporting the transaction. 
The final strategy is set to be released in the near future, fulfilling 
one of the near-term action items of the President's Cyberspace Policy 
Review. The strategy is based on public-private partnerships and 
supports the protection of privacy and civil rights and civil liberties 
by enabling only the minimum necessary amount of personal information 
to be transferred in any particular transaction. Its implementation 
will be led by the Department of Commerce.
    In September 2010, Secretary Napolitano and Secretary Gates co-
signed a Memorandum of Agreement between DHS and DoD regarding 
cybersecurity. The MOA established a Joint Coordination Element (JCE) 
led by a DHS senior official at DoD's National Security Agency. The 
intent of the MOA was to enable DHS and DoD to leverage each other's 
capabilities, and more readily share cybersecurity information on 
significant cyber incidents. The JCE has been in place and building to 
fully operational capability since October 2010.
    In December 2010, the DHS Science and Technology Directorate and 
NIST signed a Memorandum of Understanding with the Financial Services 
Sector Coordinating Council. The goal of the agreement is to speed the 
commercialization of cybersecurity research innovations that support 
our Nation's critical infrastructures. This agreement will accelerate 
the deployment of network test beds for specific use cases that 
strengthen the resiliency, security, integrity, and usability of 
financial services and other critical infrastructures.
                  collaborative risk management forums
    The increased pace of collaborative cybersecurity operations 
between DHS and the private sector is due, in part, to standing public-
private forums that support on-going process improvements across the 
partnership. A few of these forums--the Cross-Sector Cyber Security 
Working Group, the IT CIKR Sector, and the Industrial Control Systems 
Joint Working Group--meet under the auspices of the Critical 
Infrastructure Partnership Advisory Council and conduct their 
activities consistent with the National Infrastructure Protection Plan 
(NIPP) partnership framework.
    The Cross-Sector Cyber Security Working Group was established to 
address cross-sector cyber risk and explore interdependencies between 
and among various sectors. The working group serves as a forum to bring 
government and the private sector together to address common 
cybersecurity elements across the 18 CIKR sectors. They share 
information and provide input to key policy and planning documents 
including the NCIRP, the President's Cyberspace Policy Review, and the 
National Strategy for Trusted Identities in Cyberspace.
    The IT CIKR Sector security partnership is comprised of DHS as the 
IT Sector Specific Agency, public sector partners in the IT Government 
Coordination Council, and private sector partners in the IT Sector 
Coordinating Council. This partnership forms to execute the IT Sector's 
risk management framework: To identify and prioritize risks to IT 
Sector critical functions, to develop and implement corresponding risk 
management strategies, and to report on progress of risk management 
activities and adjustments to the IT Sector's risk profile. IT Sector 
public-private partners worked collaboratively to produce the 2009 IT 
Sector Baseline Risk Assessment (ITSRA), prioritizing risks to the 
sector's critical functions, and have subsequently been working to 
finalize corresponding risk management strategies outlining a portfolio 
of sector risk management activities to reduce the evaluated risks from 
the ITSRA across the functions. Progress reporting on implementation of 
these risk management strategies will be provided in the IT Sector 
Annual Report (as required by the NIPP).
    In partnership with the Department of Energy, which is the Sector 
Specific Agency responsible for the Energy Sector under the NIPP, the 
Industrial Control Systems Joint Working Group provides a vehicle for 
stakeholders to communicate and partner across all critical 
infrastructure sectors to better secure industrial control systems and 
manage risk. The Industrial Control Systems Joint Working Group is a 
representative group comprising owners and operators, international 
stakeholders, Government, academia, system integrators, and the vendor 
community. The purpose of the ICSJWG is to facilitate the collaboration 
of control systems stakeholders to accelerate the design, development, 
deployment, and secure operations of industrial control systems. Based 
on public and private sector partner input, CSSP uses the Industrial 
Control Systems Joint Working Group to inform its mission activities 
and deliver needed products and services.
    As you are aware, cybersecurity training is essential to increasing 
awareness of threats and the ability to combat them. To that end, CSSP 
conducts multi-tiered training through web-based and instructor-led 
classes across the country. In addition, a week-long training course is 
conducted at CSSP's state-of-the-art advanced training facility at the 
Idaho National Laboratory to provide hands-on instruction and 
demonstration. This training course includes a red team/blue team 
exercise in which the blue team attempts to defend a functional mockup 
control system while the red team attempts to penetrate the network and 
disrupt operations. The positive response to this week-long course has 
been overwhelming, and the classes are filled within a few days of 
announcement. To date, more than 16,000 public and private sector 
professionals have participated in some form of CSSP training through 
classroom venues and web-based instruction.
    CSSP also provides leadership and guidance on efforts related to 
the development of cybersecurity standards for industrial control 
systems. CSSP uses these industry standards in a variety of products 
and tools to achieve its mission.
    First, CSSP uses and promotes the requirements of multiple Federal, 
commercial, and international standards in its Cyber Security 
Evaluation Tool (CSET), which has been requested by and distributed to 
hundreds of asset owners across each of the 18 CIKR sectors. Tool users 
are evaluated against these standards based on answers to a series of 
standard-specific questions. CSET is also used by CSSP assessment teams 
to train and bolster an asset owner's control system and cybersecurity 
posture in on-site assessments. In fiscal year 2010, the program 
conducted more than 50 on-site assessments in 15 different States and 
two U.S. territories, including several remote locations where the 
control systems represent potential single points of failure for the 
community. The program is planning for 75 on-site assessments in fiscal 
year 2011.
    Second, CSSP developed the Catalog of Control Systems Security: 
Recommendations for Standards Developers, which brings together 
pertinent elements from the most comprehensive and current standards 
related to control systems. This tool is designed as a superset of 
control systems cybersecurity requirements and is available in the CSET 
and on the website for standards developers and asset owners.
    Last, the CSSP provides resources, including time and expertise, to 
standards development organizations including NIST, the International 
Society of Automation, and the American Public Transportation 
Association. Experts provide content, participate in topic discussions, 
and review text being considered by the standards body.
                           the general public
    While considerable activity is focused on public and private sector 
critical infrastructure protection, DHS is committed to developing 
innovative ways to enhance the general public's awareness about the 
importance of safeguarding America's computer systems and networks from 
attacks. Every October, DHS and its public and private sector partners 
promote efforts to educate citizens about guarding against cyber 
threats as part of National Cybersecurity Awareness Month. In March 
2010, Secretary Napolitano launched the National Cybersecurity 
Awareness Challenge, which called on the general public and private 
sector companies to develop creative and innovative ways to enhance 
cybersecurity awareness. In July 2010, 7 of the more than 80 proposals 
were selected and recognized at a White House ceremony. The winning 
proposals helped inform the development of the National Cybersecurity 
Awareness Campaign, Stop. Think. Connect., which DHS launched in 
conjunction with private sector partners during the October 2010 
National Cybersecurity Awareness Month. Stop. Think. Connect., has 
evolved into an on-going National public education campaign designed to 
increase public understanding of cyber threats and how individual 
citizens can develop safer cyber habits that will help make networks 
more secure. The campaign fulfills a key element of President Obama's 
Cyberspace Policy Review, which tasked DHS with developing a public 
awareness campaign to inform Americans about ways to use technology 
safely. The program is part of the NIST National Initiative for Cyber 
Education.
    DHS is committed to safeguarding the public's privacy, civil 
rights, and civil liberties. Accordingly, the Department has 
implemented strong privacy and civil rights and civil liberties 
standards into all of its cybersecurity programs and initiatives from 
the outset. To support this, DHS established an Oversight and 
Compliance Officer within NPPD, and key cybersecurity personnel receive 
specific training on the protection of privacy and other civil 
liberties as they relate to computer network security activities. In an 
effort to increase transparency, DHS also publishes privacy impact 
assessments on its website, www.dhs.gov, for all of its cybersecurity 
systems.
                               conclusion
    Set within an environment characterized by a dangerous combination 
of known and unknown vulnerabilities, strong and rapidly expanding 
adversary capabilities, and a lack of comprehensive threat and 
vulnerability awareness, the cybersecurity mission is truly a National 
one requiring broad collaboration. DHS is committed to creating a safe, 
secure, and resilient cyber environment while promoting cybersecurity 
knowledge and innovation. We must continue to secure today's 
infrastructure as we prepare for tomorrow's challenges and 
opportunities. Cybersecurity is critical to ensure that Government, 
business, and the public can continue to use the information technology 
and communications infrastructure on which they depend.
    DHS continues to engage, collaborate, and provide analysis, 
vulnerability, and mitigation assistance to its private sector CIKR 
partners. Our continued dedication to privacy and civil rights and 
civil liberties ensures a positive, sustainable model for cybersecurity 
engagement in the future. Finally, we work closely with our interagency 
partners in law enforcement, military, and intelligence, providing the 
full complement of Federal capabilities in preparation for, and in 
response to, significant cyber incidents.
    Chairman Lungren, Vice Chairman Walberg, Ranking Member Clarke, and 
distinguished Members of the subcommittee, let me conclude by 
reiterating that I look forward to exploring opportunities to advance 
this mission in collaboration with the subcommittee and my colleagues 
in the public and private sectors. Thank you again for this opportunity 
to testify. I would be happy to answer your questions.

    Mr. Lungren. Thank you very much, Mr. McGurk.
    Now the Chairman recognizes Mr. Cauley to testify.

 STATEMENT OF GERRY CAULEY, PRESIDENT AND CEO, NORTH AMERICAN 
                ELECTRIC RELIABILITY CORPORATION

    Mr. Cauley. Good morning, Chairman Lungren, Ranking Member 
Clarke, distinguished Members of the subcommittee, and fellow 
panelists. My name is Gerry Cauley. I am the President and CEO 
of the North American Electric Reliability Corporation, and I 
appreciate the opportunity to testify this morning.
    NERC is an independent, nonprofit corporation, and our 
mission is to ensure the reliability of the bulk power system 
of North America, which includes both the United States and 
Canada. I wake up every day thinking of two words, 
``reliability'' and ``accountability.'' We assure reliability 
of the bulk power system by working closely with industry to 
ensure that we are continuously learning and improving and 
striving for excellence and reliability of the bulk power 
system. We also ensure the accountability for a reliable system 
through our mandatory standards and our compliance program.
    Some associate NERC as being an industry association. 
However, NERC has a very diverse mix of interests that we 
represent, including small and large customers, Government 
entities, and a diverse range of industry owners, operators, 
and users.
    NERC was initially formed in 1968 and operated for several 
decades as a voluntary organization. In 2006, we were certified 
by the Federal Energy Regulatory Commission as the electric 
reliability organization within the United States, and we have 
similar authorities in Canada. In 2007, our standards became 
mandatory and enforceable for the power system, including nine 
cybersecurity standards that we have in effect.
    In terms of the challenge for the grid, I think everyone 
recognizes that there is a lot of concern for the security of 
the power grid in North America, and we understand that the 
grid is essentially at the hub of all critical infrastructures 
and that everyone depends on a reliable supply of electricity. 
Over the past couple of decades, the power grid has become 
increasingly more digital as the grid was modernized to improve 
reliability and efficiency, cost and quality benefits.
    What I want to assure you, though, despite becoming more 
digital, the underlying power grid is very robust and 
resilient. The underlying power grid is nondigital. It is not 
as weak as may be conveyed to some and certainly is not 
operated over the public internet.
    Many companies have taken prudent steps, such as providing 
dedicated control networks, redundant systems, tight access 
controls, adopting best security practices and patches. 
Certainly every day business continuity, reliability, and 
security are at the foremost of the industry and the 
leadership, the CEO-level leadership of the industry.
    That is not to say, however, that there are not 
vulnerabilities. There are very serious vulnerabilities and 
threats that we face, and there are very serious adversaries 
that would do harm to the power grid in North America. The 
challenge is that the network has become very interconnected, a 
series of very interconnected digital networks and 
communications, that we do have portals from our control 
systems to the internet and to business systems, and that our 
digital assets are very widely distributed. They are varied. 
They come from a range of suppliers, and some of those 
suppliers are international. So we do have challenges on the 
supply side as well.
    What is NERC doing with regard to this? We have our 
standards, as I mentioned, and we are doing hundreds of audits 
across the industry to ensure that our standards are being 
followed. We are doing readiness reviews and sharing best 
practices. We are conducting an exercise in November of this 
year to test our National response capability.
    We issue alerts in cooperation with Homeland Security and 
other agencies. We have issued alerts on Stuxnet, Aurora, BP, 
and tunneling in other areas. We are monitoring activities that 
might impact the grid.
    I would like to turn finally to just the importance of the 
relationship to homeland security and the Federal Government. I 
think the key there is the sharing of actionable information 
that we can use to protect the grid, not sort of general and 
vague information but timely, operational-type information.
    Homeland Security has helped us in terms of providing 
security clearances not only to NERC staff but to industry 
personnel and provides periodic briefings to help us better 
understand the threats and vulnerability. As Mr. McGurk 
mentioned, we are working on a memorandum of understanding to 
integrate our ES-ISAC, our Information Sharing Analysis Center 
with the National center that he is the head of.
    In conclusion, NERC is working very closely with Homeland 
Security and other Government agencies to ensure our critical 
infrastructure. Every day I am focused on the reliability and 
security of the grid and the interests of the American public.
    I am here to answer your questions, and I appreciate the 
opportunity to speak today. Thank you.
    [The statement of Mr. Cauley follows:]
                   Prepared Statement of Gerry Cauley
                             April 15, 2011
                              introduction
    Good morning Chairman Lungren, Members of the subcommittee and 
fellow panelists. My name is Gerry Cauley and I am the president and 
CEO of the North American Electric Reliability Corporation (NERC). I am 
a graduate of the U.S. Military Academy, a former officer in the U.S. 
Army Corps of Engineers, and have more than 30 years experience in the 
bulk power system industry, including service as a lead investigator of 
the August 2003 Northeast blackout and coordinator of the NERC Y2K 
program. I appreciate the opportunity to testify today on the topic 
``The DHS and the Cybersecurity Mission: Promoting Innovation and 
Securing Critical Infrastructure.''
                            nerc background
    NERC's mission is to ensure the reliability of the bulk power 
system of North America and promote reliability excellence. NERC was 
founded in 1968 to develop voluntary standards for the owners and 
operators of the bulk power system (BPS).\1\ NERC is an independent 
corporation whose membership includes large and small electricity 
consumers, Government representatives, municipalities, cooperatives, 
independent power producers, investor-owned utilities, independent 
transmission system operators and Federal power marketing agencies such 
as TVA and Bonneville Power Administration.
---------------------------------------------------------------------------
    \1\ The Bulk Power System (BPS) is defined as generation and 
transmission of electricity greater than 100kv, in contrast to the 
distribution of electricity to homes and businesses at lower voltages.
---------------------------------------------------------------------------
    In 2007, NERC was designated the Electric Reliability Organization 
(ERO) by the Federal Energy Regulatory Commission (FERC) in accordance 
with Section 215 of the Federal Power Act (FPA), enacted by the Energy 
Policy Act of 2005. Upon approval by FERC, NERC's reliability standards 
became mandatory across the BPS. These mandatory reliability standards 
include Critical Infrastructure Protection (CIP) Standards 002 through 
009, which address the security of cyber assets essential to the 
reliable operation of the electric grid. To date, these standards [and 
those promulgated by the Nuclear Regulatory Commission] are the only 
mandatory cybersecurity standards in place across the critical 
infrastructures of North America. Subject to FERC oversight, NERC and 
its Regional Entity partners enforce these standards, which are 
developed with substantial input from industry and approved by FERC, to 
accomplish our mission to ensure the reliability of the electric grid. 
In its position between industry and government, NERC embodies the 
often-invoked goal of creating effective partnerships between the 
public sector and the private sector.
    As a result of society's growing dependence on electricity, the 
electric grid is one of the Nation's most critical infrastructures. The 
bulk power system in North America is one of the largest, most complex, 
and most robust systems ever created by man. It provides electricity to 
more than 334 million people, is capable of generating more than 830 
gigawatts of power and sending it over 211,000 miles of high voltage 
transmission lines, and represents more than $1 trillion in assets. The 
electricity being used in this room right now is generated and 
transmitted in real time over a complex series of lines and stations 
from possibly as far away as Ontario or Tennessee. As complex as it is, 
few machines are as robust as the BPS. Decades of experience with 
hurricanes, ice storms, and other natural disasters, as well as 
mechanical breakdowns, vandalism and sabotage, have taught the electric 
industry how to build strong and reliable networks that generally 
withstand all but the worst natural and physical disasters while 
supporting affordable electric service. The knowledge that disturbances 
on the grid can impact operations thousands of miles away has 
influenced the electric industry culture of planning, operating, and 
protecting the BPS.
                the cybersecurity challenge for the grid
    Along with the rest of our economy, the electric industry has 
become increasingly dependent on digital technology to reduce costs, 
increase efficiency and maintain the reliability of the BPS. The 
networks and computer environments that make up this digital technology 
could be as vulnerable to malicious attacks and misuse as any other 
technology infrastructure. Much like the defense of this country, the 
defense of the BPS requires constant vigilance and expertise.
    The assets that make up the BPS are varied and widespread. 
Consequently, the architecture within the systems varies from operator 
to operator. However, the computer systems that monitor and control BPS 
assets are based on relatively few elements of technology. Due to 
increasing efficiencies and globalization of vendors, the universe of 
suppliers for industrial control systems is limited. This trend is 
leading toward a fairly homogenous technological underpinning and, as 
older proprietary technology is replaced, the variation may decrease 
further.
    For example, the bulk power system could be as vulnerable to 
digital threats as IT systems, but with far more critical implications. 
As proprietary industrial control systems continue to integrate 
Commercial Off-The-Shelf (COTS) systems, these platforms could inherit 
the embedded vulnerabilities of those systems. As illustrated by the 
Stuxnet malware, industrial control system software can be changed and 
a loss of process control can occur without intrusions even being 
detected. The Stuxnet intrusion methods may serve as a blueprint for 
future attackers who wish to access controllers, safety systems, and 
protection devices to insert malicious code that could result in 
changes to set points and switches, as well as the alteration or 
suppression of measurements. NERC, through the Electricity Sector-
Information Sharing and Analysis Center (ES-ISAC), issued an alert on 
Stuxnet, as it has done with other vulnerabilities, to inform the 
industry and recommend preventative action.
    Establishment and continued refinement of NERC's enterprise risk-
based programs, policies, and processes to prepare for, react to, and 
recover from cybersecurity vulnerabilities need to continue to be a 
high priority for the industry. The bulk power system has not yet 
experienced wide-spread debilitating cyber-attacks due in large part to 
the traditional physical separation between the industrial control 
system environment and business and administrative networks. However, 
the increased sharing of internet and computer networking by control 
systems and business and administrative networks means that digital 
infrastructures that were formerly physically separated are now 
becoming susceptible to common threats.
  the role of nerc and critical infrastructure protection reliability 
                               standards
    The NERC CIP standards require electric sector entities to develop 
a risk-based security policy based upon their specific assets, 
architecture, and exposure. This policy, if properly implemented, will 
provide insight into the entity's systems and provide the opportunity 
to mitigate potential threats and vulnerabilities before they are 
exploited. Compliance with the NERC CIP standards is a first step in 
properly securing the BPS. However, there is no single security asset, 
security technique, security procedure, or security standard that, even 
if strictly followed or complied with, will protect an entity from all 
potential threats. The cybersecurity threat environment is constantly 
changing and our defenses must keep pace. Security best practices call 
for additional processes, procedures, and technologies beyond those 
required by the CIP standards. Simple implementation of enforceable 
standards, while valuable and a necessary first step should not be seen 
as the security end-state.
    It is important to emphasize the difficulty of addressing grid 
security through a traditional regulatory model that relies principally 
on mandatory standards, regulations, and directives. The defensive 
security barriers mandated by CIP standards can be effective in 
frustrating ordinary hackers by increasing the costs and resources 
necessary to harm to the grid. They may not, however, stop the 
determined efforts of the intelligent, adaptable adversaries supported 
by nation states or more sophisticated terrorist organizations.
    NERC is moving forward with a number of actions to complement our 
mandatory CIP standards and provide enhanced resilience for the grid. 
As chair of the Electricity Sub-Sector Coordinating Council (ESCC), I 
work with industry CEOs and our partners within the Government, 
including the Department of Energy, Department of Defense, and 
Department of Homeland Security, to discuss and identify critical 
infrastructure protection concepts, processes, and resources, as well 
as to facilitate information sharing about cyber vulnerabilities and 
threats. This type of public/private partnership is key to coordination 
and communication efforts on cybersecurity topics and initiatives. NERC 
is also developing a North American cybersecurity exercise to prepare 
for and test a National response plan for the electric sector.
    The most effective approach for combating sophisticated adversaries 
is to apply resiliency principles, as outlined in a set of nine 
recommendations the National Infrastructure Advisory Council delivered 
to the White House in October 2010. I served on that Council, along 
with a number of nuclear and electric industry CEOs. Resiliency 
requires more proactive readiness for whatever may come our way. 
Resiliency includes providing an underlying robust system; the ability 
to respond in real-time to minimize consequences; the ability to 
restore essential services; and the ability to adapt and learn. The 
industry is already resilient in many aspects, based on system 
redundancy and the ability to respond to emergencies. To further 
enhance resiliency, examples of the NIAC team's recommendations 
include: (1) A National response plan that clarifies the roles and 
responsibilities between industry and Government; (2) improved 
information sharing by Government regarding actionable threats and 
vulnerabilities; (3) cost recovery for security investments driven by 
National policy or interests; and (4) a National strategy on spare 
equipment with long lead times, such as transformers. At NERC, we are 
working with stakeholders to develop programs that build upon the 
resiliency inherent in the grid to better secure critical assets and 
ensure the continued reliability of the BPS.
                    information exchange is critical
    NERC and the electric industry can only deal with the risks they 
are aware of. It is impractical, inefficient, and impossible to defend 
against all possible threats or vulnerabilities. Entities must 
prioritize their resources to ensure that they are protected against 
those risks that pose the greatest harm to their assets, their 
business, and their customers. The electric industry is in the best 
position to understand the impact that a particular event or incident 
could have on the BPS, but they do not have the same access to 
actionable intelligence and analysis that the Government does. This 
lack of information leads the industry to be, at best, a step behind 
when it comes to protecting against potential threats and unknown 
vulnerabilities. Too often the industry has heard from Government 
agencies that the threats are real, but are given little or no 
additional information. This leads to frustration among the private 
sector leaders who are unable to respond effectively due to ill-defined 
and nebulous threat information.
                              nerc and dhs
    Improving the amount and quality of actionable intelligence 
available to industry is a priority for NERC and is reflected in a 
number of joint projects underway with DHS and DOD.
    NERC is working with DHS' National Cybersecurity and Communications 
Integration Center to develop a Memorandum of Understanding for bi-
directional sharing of critical infrastructure protection information 
between the Government and the electricity sector in North America. The 
MOU will result in cybersecurity data flow, analytical collaboration, 
and incident management activities across the spectrum of cybersecurity 
coordination to include detection, prevention, mitigation, and 
response/recovery.
    NERC and DHS cooperative activities will align differing, but 
related missions, business interests, strengths, and capabilities to 
identify and develop mitigations for emerging cybersecurity risks, 
which will enhance the protection of critical infrastructure and 
Government networks and systems that are vital to National security and 
the Nation's economy. Under this MOU, NERC, as the ES-ISAC, will act as 
a clearing house, disseminating actionable intelligence, including 
classified contextual information to appropriately cleared staff within 
the BPS community. NERC also will provide anonymous situational 
awareness to DHS analysts to supplement the information DHS received 
from the intelligence community. We see this effort as crucial to 
improving the level of threat awareness within the industry and 
improving information between Government and industry.
    As noted before, NERC also uses the ES-ISAC to send Alerts and 
Notifications to registered BPS entities. These Alerts and 
Notifications are developed with the strong partnership of Federal 
technical partners, including DHS and the Department of Energy National 
Laboratories, and BPS subject matter experts, called the HYDRA team by 
NERC.
    NERC also provides leadership to two significant DHS-affiliated 
public-private partnerships. These are the Partnership for Critical 
Infrastructure Security (PCIS) and the Industrial Control Systems Joint 
Working Group (ICSJWG). The PCIS is the senior-most policy coordination 
group between public and private sector organizations. On the 
Government side, PCIS is comprised of the National Infrastructure 
Protection Plan (NIPP) Federal Senior Leadership Council (FSLC) and the 
State, Local, and Tribal Government Coordinating Council (SLTGCC), as 
well as the chairs of all of the other Government Sector Coordinating 
councils. On the private side, PCIS is comprised of the chairs of all 
of the private sector coordinating councils. The ICSJWG is a cross-
sector industrial control systems working group that focuses on the 
areas of education, cross-sector strategic roadmap development, 
coordinated efforts on developing better vendor focus on security needs 
and cybersecurity policy issues.
                           nerc, doe, and dod
    NERC is engaged with other agencies besides DHS, including DOD and 
DOE National laboratories, to further the level of awareness and 
expertise focused on cybersecurity, especially as it pertains to the 
BPS. We are working with Pacific Northwest National Laboratory on 
developing certification guidelines for Smart Grid Cyber Operators and 
the Electric Sector Network Monitoring initiative. Similarly, we are 
working with the Idaho National Laboratory to promote the Cyber 
Security Evaluation Tool for use within the electric sector. NERC also 
is partnering with the Industrial Control Systems Cyber Emergency 
Response Team to share threat, vulnerability, and security incident 
information.
    Additionally, NERC is working with DOE and the National Institute 
of Standards and Technology to develop comprehensive cybersecurity risk 
management process guidelines for the entire electric grid, including 
the BPS and distribution systems. We believe this to be particularly 
important with the increasing availability of smart grid technologies. 
While the majority of technology associated with the smart grid is 
found within the distribution system, vulnerabilities realized within 
the distribution system could potentially impact the BPS. Everyone 
engaged in smart grid implementation should ensure that appropriate 
security applications and technologies are built into the system to 
prevent the creation of additional threats and vulnerabilities.
                               conclusion
    As our Nation becomes more dependent upon electricity and as the 
BPS becomes more dependent on information systems, we must secure those 
systems that enable our way of life. As discussed today, NERC is 
committed to working with DHS and other Government agencies on several 
efforts to promote innovation and secure our critical infrastructure. 
As Congress considers policy decisions in this arena, NERC would 
suggest that the ESCC and the ES-ISAC be considered as key elements in 
the cybersecurity mission. NERC continues to work with Government and 
industry to utilize its expertise and promote thoughtful innovation as 
we address the question of how to ensure security in our open society. 
The cybersecurity challenges facing us are not intractable--they are 
the result of our own great innovation and can be overcome through our 
own great ingenuity.

    Mr. Lungren. Thank you very much, Mr. Cauley.
    Now the Chairman would recognize Ms. Carlin to testify.

  STATEMENT OF JANE CARLIN, CHAIR, FINANCIAL SERVICES SECTOR 
                      COORDINATING COUNCIL

    Ms. Carlin. Thank you, Chairman Lungren and other Members 
of the committee, for hearing our thoughts today in this 
important area and for inviting me to testify on behalf of the 
Financial Services Sector Coordinating Council.
    I am Jane Carlin, and I serve as chairperson of the council 
that we refer to as FSSCC. I have submitted a detailed written 
statement that addresses several areas, including how the FSSCC 
and others in the sector engage with DHS on cybersecurity 
issues, lessons learned from recent cyberattacks, 
recommendations for improved public-private information 
sharing, and comments on cybersecurity legislation. In the 
interest of time, I would like to focus mostly on information 
sharing today following a brief overview of the FSSCC.
    FSSCC was created in 2002 in response to the September 11 
attacks. It operates under the support of the U.S. Treasury as 
our sector-specific agency in harmony with a Presidential 
directive. The FSSCC does not collect dues. It is entirely a 
volunteer organization. Accordingly, it relies heavily on the 
time members contribute and to the expertise and leadership 
roles members play within their respective financial 
institutions and associations.
    In recent years, FSSCC has had a highly productive and 
expanding relationship with DHS at the most senior levels and 
on many fronts, including information sharing, research and 
development, cyber exercises, and cross-sector coordination.
    Information sharing is of critical importance to the 
financial services sector for several reasons. First, financial 
institutions and others that make up the critical 
infrastructure are on the front line of cybercrime and 
malicious attacks. When a financial institution is the victim 
of a cyberattack, it is concerned about protecting its 
customers, its reputation, and complying with all relevant 
regulatory requirements.
    Second, others in the sector may be concerned about the 
impact that this attack could have on its organization and 
counterparties, as well, of course, as the potential for 
systemic risk to the entire financial services sector.
    Third, the Government is responsible for enforcing laws and 
promoting critical infrastructure protection, and the 
Government ultimately holds important information that is both 
technical and contextual. Technical information such as malware 
signatures, contextual in terms of what type of entity appears 
to be initiating the attack.
    There is a strong need to establish appropriate and well-
understood protocols to share information so that we 
collectively understand the problems and risks that we face in 
order to arrive at the right response or solution. When attacks 
occur, the FSSCC has a defined crisis management process, 
escalation and notification protocols, including sending rapid 
notifications to members throughout financial services.
    Although we have made good progress in creating 
information-sharing entities and mechanisms for information 
sharing, we have not adequately tackled the critically 
important issues associated with timeliness and completeness of 
information sharing. We now need to focus on clarifying and 
compartmentalizing information so that so-called actionable 
intelligence can be disseminated to responsible parties that 
will use it to protect critical infrastructure.
    What I mean by actionable intelligence is simply redacted 
technical and contextual information without revealing sources 
and uses or tipping off criminals or adversaries.
    The fundamental issue of striking a balance between 
confidentiality for criminal investigations and timely 
information sharing remains a work in progress. An example of 
an incident where too much secrecy led to an increased exposure 
was the cyberattacks on a major exchange which was discovered 
by the exchange in October, 2010. The exchange alerted its 
primary regulator in law enforcement for a variety of reasons, 
including an investigation of the attack by law enforcement and 
intelligence agencies. Information about the attack and its 
impact on other financial institutions was not disclosed to 
others in the financial services sector for 102 days. The lack 
of meaningful information sharing for more than 3 months left 
the entire sector unnecessarily vulnerable.
    In this connection, we would like to suggest two 
recommendations: First, a more transparent decision-making 
process to facilitate information sharing would accelerate the 
dissemination of information without interfering or undermining 
criminal or National security investigations. To implement this 
kind of information-sharing protocol, the FSSCC and senior DHS 
officials have agreed in principle to collaborate on protocols 
for sharing technical and contextual information, again without 
interfering with an on-going investigation.
    Second, we believe that DHS needs to regularly leverage the 
security clearances that DHS and other Government agencies have 
sponsored for members of the FSSCC as part of the information-
sharing framework. The Government should be able to more easily 
consult with industry experts and to better understand the 
systemic risk implications of these cyber events by leveraging 
the secured and cleared community.
    On behalf of the FSSCC, I ask this committee in its 
oversight capacity to support DHS's work in these areas. It is 
my hope that this good work to enhance the public-private 
partnership will continue so that together we can be more 
resilient and combat those who would seek to undermine our 
economy and stability, be they homegrown or foreign, criminal 
or terrorist, rogue- or State-sponsored. It is only by working 
together that we will prevail in the complex and ever-changing 
internet-connected world.
    Thank you.
    [The statement of Ms. Carlin follows:]
                   Prepared Statement of Jane Carlin
                             April 15, 2011
    Chairman King, Subcommittee Chairman Lungren, Ranking Member 
Thompson and Members of the subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies of the Homeland 
Security Committee, I am Jane Carlin. I serve as the chairperson of 
Financial Services Sector Coordinating Council for Critical 
Infrastructure Protection and Homeland Security (``FSSCC''). I also am 
the Managing Director and Global Head of Operational Risk, Business 
Continuity, Information Security, and Risk and Insurance Management at 
Morgan Stanley.
    Thank you for inviting me to testify on behalf of the Financial 
Services Sector Coordinating Council for Homeland Security and Critical 
Infrastructure Protection (``FSSCC'') on ``The Department of Homeland 
Security Cybersecurity Mission: Promoting Innovation and Securing 
Critical Infrastructure.'' My testimony today will address the 
following: Background information on the FSSCC, engagement with DHS, 
lessons learned from recent cyber attacks, recommendations for 
improving public-private partnership, and comments on cybersecurity 
legislation.
           background on fsscc and public-private partnership
    The FSSCC was established in 2002 in response to the September 11, 
2001 attacks and at the request of the U.S. Treasury Department in 
harmony with Presidential Decision Directive 63 of 1998. Presidential 
Decision Directive 63 required sector-specific Federal departments and 
agencies to identify, prioritize, and protect United States critical 
infrastructure and key resources and to establish partnerships with the 
private sector.
    The FSSCC has 52 member associations and financial institutions 
representing clearinghouses, commercial banks, credit rating agencies, 
exchanges/electronic communication networks, financial advisory 
services, insurance companies, financial utilities, Government-
sponsored enterprises, investment banks, merchants, retail banks, and 
electronic payment firms.\1\ FSSCC members dedicate a significant 
amount of time and resources to this partnership for critical 
infrastructure protection and homeland security. The FSSCC does not 
collect dues and its success as a volunteer organization relies heavily 
on the time members contribute and to the expertise and leadership 
roles members play within their respective financial institutions and 
associations. Appendix A includes the current FSSCC organizational 
chart, including those who serve in leadership roles of seven 
committees that address crisis event management, cross-sector 
coordination, cybersecurity, international, long-range vision, policy, 
and research and development.
---------------------------------------------------------------------------
    \1\ Members including: American Bankers Association, American 
Council of Life Insurers, American Insurance Association, American 
Society for Industrial Security International, BAI, Bank of America, 
Bank of NY/Mellon, Barclays, BITS/The Financial Services Roundtable, 
CME Group, ChicagoFIRST, Citigroup, The Clearing House, CLS Group, 
Consumer Bankers Association, Credit Union National Association, The 
Depository Trust & Clearing Corporation, Fannie Mae, Financial Industry 
Regulatory Authority, Financial Information Forum, Financial Services 
Information Sharing and Analysis Center, Freddie Mac, Futures Industry 
Association, Goldman Sachs, ICE Futures U.S., Independent Community 
Bankers of America, Investment Company Institute, JP Morgan Chase, 
Managed Funds Association, Morgan Stanley, NACHA--The Electronic 
Payments Association, The NASDAQ Stock Market, Inc., National Armored 
Car Association, National Association of Federal Credit Unions, 
National Futures Association, Navy Federal Credit Union, NYSE Euronext, 
The Options Clearing Corporation, Securities Industry and Financial 
Markets Association, State Farm, State Street Global Advisors, 
Travelers, VISA USA Inc.
---------------------------------------------------------------------------
    On August 3, 2010, I was selected by members of the FSSCC to serve 
as the chairperson. I am preceded by four FSSCC chairpersons: Shawn 
Johnson of State Street Global Advisors (SSGA) from 2008-10, George 
Hender of the Options Clearing Corporation (OCC) from 2006-08, Don 
Donahue of Depository Trust and Clearing Corporation (DTCC) from 2004-
06, and Rhonda MacLean of Bank of America from 2002-04. Prior to my 
selection, I served as FSSCC's vice chairperson and head of the FSSCC 
Cybersecurity Committee from June 2008 to August 2010. Additionally, I 
serve on the Executive Committee and Board of the Partnership for 
Critical Infrastructure Security (PCIS), which is the private sector 
organization that coordinates homeland security issues for all National 
critical infrastructure sectors.
    Each year the FSSCC submits an annual report on our activities. 
This annual report is published by the Department of Homeland Security 
along with reports from the other CIP sectors. Appendix B is the 
executive summary of our most recent Sector Annual Report which 
provides an overview of our role and activities. Our partnership is 
frequently heralded as the model and aspired to by the other 17 
critical infrastructure sectors.
    The goal of the FSSCC is to continue to improve the resilience and 
availability of financial services by working through its public-
private partnership to address the evolving nature of threats and 
vulnerabilities and the risks posed by the sector's dependence on other 
critical sectors. In support of this goal, the FSSCC established four 
objectives in 2010:
  <bullet> Identify threats and promote protection;
  <bullet> Drive preparedness;
  <bullet> Collaborate with the Federal Government;
  <bullet> Coordinate crisis response.
    In support of these objectives the FSSCC's current priorities 
include:
  <bullet> Information sharing;
  <bullet> Crisis event management;
  <bullet> Threat matrix dissemination and management;
  <bullet> Communication and outreach;
  <bullet> Identity assurance.
    In 2002, the Treasury Department also chartered the Financial and 
Banking Information Infrastructure Committee (FBIIC) under the 
President's Working Group on Financial Markets.\2\ The FBIIC is charged 
with improving coordination and communication among financial 
regulators, enhancing the resiliency of the financial sector, and 
promoting the public/private partnership. The U.S. Department of the 
Treasury serves as the Sector Specific Agency (SSA) for the Banking and 
Finance Sector. The FSSCC-FBIIC public-private partnership was 
confirmed in Homeland Security Presidential Directive 7 of 2003.
---------------------------------------------------------------------------
    \2\ The FBIIC was organized under Executive Order 13231 of October 
16, 2001 entitled Critical Infrastructure Protection in the Information 
Age. Members of the FBIIC include: American Council of State Savings 
Supervisors; Commodity Futures Trading Commission; Conference of State 
Bank Supervisors; Department of the Treasury; Farm Credit 
Administration; Federal Deposit Insurance Corporation; Federal Housing 
Finance Agency; Federal Reserve Bank of New York; Federal Reserve 
Board; National Association of Insurance Commissioners; National 
Association of State Credit Union Supervisors; National Credit Union 
Administration; North American Securities Administrators Association; 
Office of the Comptroller of the Currency; Office of Thrift 
Supervision; Securities and Exchange Commission; and Securities 
Investor Protection Corporation.
---------------------------------------------------------------------------
    The FSSCC and FBIIC meet jointly at least three times a year, 
supplemented by monthly conference calls. Earlier this week, over 80 
executives, experts, and officials from the FSSCC and FBIIC met in 
Chicago to discuss a wide range of issues, including: Information 
sharing, regional coalitions, threats, and cyber incident reviews.
    In addition to the collaboration with the FBIIC, it is important to 
remind the committee that the financial services sector is highly 
regulated by international, Federal, and State authorities. Through 
numerous laws enacted by Congress over the past 150 years, Federal 
financial regulators have implemented a complex regime that includes 
supervision of the financial institutions' operational, financial, and 
technological systems. Regulators, such as the Federal Reserve, Federal 
Deposit Insurance Corporation, Office of the Comptroller of the 
Currency and Securities and Exchange Commission, conduct examinations 
to assess the adequacy of controls to address financial and other 
risks. These examinations focus on information security, business 
continuity, vendor management, and other operational risks.
    In addition to these public sector entities, self-regulatory 
organizations (SROs), such as the Municipal Securities Rulemaking Board 
(MSRB), the Financial Industry Regulatory Authority (FINRA), the 
National Futures Association (NFA), and exchanges, such as the Chicago 
Mercantile Exchange (CME), and the New York Stock Exchange (NYSE), also 
play an important role in industry oversight.
                          engagement with dhs
    The FSSCC has a productive and expanding relationship with the 
Department of Homeland Security (DHS), but more is needed. Our 
engagement with DHS covers a wide range of activities, including crisis 
management, information sharing, research and development, and managing 
the risks posed by our sector's dependency on other critical sectors, 
such as communications and information technology, for which DHS serves 
as the SSA. In addition to meeting with senior officials at DHS, the 
FSSCC and FS-ISAC have engaged in numerous projects and initiatives to 
improve critical infrastructure and cybersecurity, including:
    Information Sharing and Threat Identification.--On a daily basis, 
there are cyber attacks. The financial services sector develops its own 
information about threats, vulnerabilities, and incidents. These 
threats, vulnerabilities, and incidences are shared within the 
protection protocols of the sector. Financial institutions view the 
risk environment much broader than just within our individual 
organizations. Given the interconnections and risk exposure among 
participants and counterparties, an attack on one institution could 
have cascading implications for others in the sector.
    When cyber attacks occur, the FSSCC has a defined crisis management 
process, escalation and notification protocols to share information. As 
part of this process, our sister organization, the Financial Services 
Information Sharing and Analysis Center (known as the ``FS-ISAC''), 
sends rapid notifications to member firms to protect critical systems 
and assets.
    The FS-ISAC reaches more than 20,000 sector participants daily and 
promotes information sharing between the public and private sectors. 
The FS-ISAC allows its members to receive threat and vulnerability 
information immediately; communicate within a secure portal to share 
vulnerability assessments and other information anonymously; and access 
new data feeds of threat and vulnerability information. In addition, 
the FS-ISAC has implemented a crisis communications system to notify 
its members of emergencies in minutes.
    In 2010, the Financial Services Information Sharing and Analysis 
Center (FS-ISAC), which serves as the information-sharing operational 
arm of the FSSCC, the Department of Defense and DHS, collaborated to 
launch the Government Information Sharing Framework initiative (GISF) 
based on initiatives with the Defense Industrial Base (DIB). This pilot 
program consists of information sharing of threat and attack data 
between the Federal Government and about a dozen financial services 
firms. Beyond this, the FS-ISAC is the third sector (following the 
Communications and IT sectors) to embed at the classified level, senior 
and operational representatives within the DHS National Cybersecurity 
and Communications Integration Center (NCCIC) as core members of the 
watch and response teams. The Government's plan is to use these 
examples as models for public-private sector information sharing for 
other sectors to follow.
    In early April, senior DHS officials and the FSSCC agreed to 
collaborate on developing guidelines for when information should be 
shared, especially information that is technical and contextual. This 
decision to collaborate arose in response to a review of lessons 
learned from recent cyber attacks, which I will review in greater 
detail later in my testimony. In addition, the FSSCC is working with 
the National Infrastructure Assurance Council (NIAC) on an information-
sharing study.
    Sponsoring Security Clearances for Industry Professionals.--At the 
urging of the FSSCC years ago, DHS and the Treasury have increased the 
number of clearances for senior executives and experts from our sector. 
In addition, DHS and the Treasury have arranged classified level 
briefings each year, typically in conjunction with the FSSCC and FBIIC 
meetings. Dozens of FSSCC members and all member firms represented on 
the FS-ISAC Threat Intelligence Committee (TIC) are cleared to at least 
the SECRET level. In addition, at least seven financial services 
private sector individuals with cybersecurity responsibilities are 
cleared at TOP SECRET/SCI level. For those individuals who have been 
cleared, the process took a significant amount of time (not to mention 
the time and expense from the Government side).
    Collaborate on R&D.--The FSSCC R&D Committee has been working 
closely with the Science and Technology Directorate of DHS for many 
years. Our collaboration began in 2005 when the FSSCC established an 
R&D Committee and shared the results of our efforts to identify the top 
R&D priorities.\3\ Recently, we have focused considerable attention on 
improving identity assurance. Our collaboration resulted in a 
groundbreaking Memorandum of Understanding (MOU), which was signed on 
December 6, 2010 by the FSSCC, DHS, and the National Institute of 
Standards and Technology (NIST) with active support by the White House 
Cybersecurity Advisor and head of the Office of Science and Technology 
Policy.\4\ The MOU lays the foundation for developing an identity 
assurance test bed that will focus on improving the accuracy and 
timeliness of identity proofing, and reducing identity impersonation. 
The collaborative initiative includes the concept of a ``financial 
services credential verification gateway'' to enable direct 
verification of identity credentials with the authenticating 
authorities.
---------------------------------------------------------------------------
    \3\ See https://www.fsscc.org/fsscc/news/default.jsp for the list 
of top R&D priorities including: Advancing the state of the art in 
designing and testing secure applications; making financial transaction 
systems more secure and resilient; improving enrollment and identity 
credential management; understanding human insider threats and 
developing deterrence and detection; developing data-centric protection 
strategies to better classify and protect sensitive information; 
devising better measures of the value of security investments; and 
developing practical standards to reduce risk and enhance resiliency.
    \4\ See http://www.whitehouse.gov/blog/2010/12/06/partnership-
cybersecurity-innovation.
---------------------------------------------------------------------------
    As a follow-up to the MOU, the FSSCC is working with DHS and NIST 
on a Cooperative Research and Development Agreement (CRADA) on identity 
proofing. Also envisioned in the MOU is an effort to define and test 
the concept of establishing a secure domain within the larger internet, 
where critical industries and Government can more securely exchange 
sensitive information and complete high-risk transactions. This effort 
also includes planning and testing for IPv6 and DNSSEC transitioning.
    Other R&D activities include establishing and/or expanding 
relationships with academia, DHS, National Science Foundation (NSF), 
NIST, and the Department of Defense's Networking and Information 
Technology Research and Development (NITRD) to provide financial 
services expertise and enhance the transfer of promising research into 
commercial use. In addition, members of the FSSCC have participated in 
an insider threat study that DHS's U.S. Secret Service has been 
conducting for several years.
    Comments on Strategies and Cyber Incident Response Plans.--The 
FSSCC has worked with DHS and White House officials in commenting on 
the National Strategy for Trusted Identities in Cyberspace (NSTIC). The 
FSSCC also has provided input into the National Cyber Incident Response 
Plan and supported the National Security Telecommunications Advisory 
Committee (NSTAC) Cross Sector Information Sharing Pilot.
    Cross-Sector Coordination.--The FSSCC continues to work with cross-
sector councils. For example, the FSSCC and FS-ISAC participate in the 
DHS Cross Sector Cyber Security Working Group (CSCWG), which has 
representation across the 18 critical infrastructure sectors and meets 
monthly to review cross-sector cybersecurity strategies, programs, and 
projects of interest. From a crisis management perspective, the FS-ISAC 
presence in both the National Infrastructure Coordination Center (NICC) 
and the NCCIC supports close cooperation and coordination for disaster, 
physical security, and cybersecurity events. We also are working with 
the other critical sectors through the Partnership for Critical 
Infrastructure Security (PCIS), an ``arm'' of DHS's partnership 
structure outlined in the NIPP, to share critical contact information 
for each sector as a first step to developing an efficient all hazards 
cross-sector crisis response plan.
    In 2010, a more formal cross-sector information-sharing pilot was 
funded by the President's National Security Telecommunications Advisory 
Committee (NSTAC). Four sectors participated in this pilot: Financial 
services, communications, IT, and the defense industrial base. The FS-
ISAC provided the secure portal by which the four sectors exchanged 
cyber threat data. Relevant and actionable cyber threat information was 
exchanged during the pilot, which would not have been known to the 
other sectors. As a result of the program's success, the pilot was 
extended in 2011 with the intent of rolling it out to all interested 
sectors later in the year. Furthermore, the FSSCC is involved in cross-
sector work of the PCIS in order to share critical contact information 
for each sector as a first step to developing an efficient cross-sector 
crisis response plan.
    Participation in Cyber Exercises and Crisis Playbooks.--The 
financial services sector has performed multiple exercises testing 
various perceived vulnerabilities and establishing follow-up actions as 
a result of lessons learned. Significant tests were run to evaluate 
sector preparedness related to social engineering attacks, payment 
processing attacks, and communication during a crisis. In particular, 
the 2009 Cyber Financial Industry and Regulators Exercise (CyberFIRE) 
and Cyber Attack against Payment Processes (CAPP) exercise were jointly 
executed by the FSSCC, FS-ISAC, and included many FBIIC members, the 
U.S. Secret Service, the Federal Bureau of Investigation (FBI), DHS, 
and more than 800 individual participants. Members of the FSSCC are 
also planning to participate in the upcoming National Level Exercise 
No. 13 in May. The FSSCC and FS-ISAC have created crisis response 
playbooks in order to clarify lines of communication during crises. The 
sector provided leadership for recent events requiring a coordinated 
response, including the earthquake in Haiti, pandemic flu, and 
hurricane situations.
    Support for Regional Coalitions and Fusion Centers.--Since 2002, 
the FBIIC and the FSSCC have supported the formation of regionally-
based financial partnerships and coalitions dedicated to enhancing the 
resilience of the financial community in specific geographic areas. At 
present, there are nearly two dozen regional coalitions that consist of 
private sector members who partner with the public sector. DHS and the 
Treasury Department have been very supportive of these organizations, 
primarily through the Regional Partnership Council (RPCfirst), the 
umbrella organization to which the coalitions belong. Chicago FIRST, as 
the Chair of RPCfirst, partnered with the DHS National Cyber Security 
Division (NCSD) to develop ``cyber tabletop in a box.'' Regional 
coalitions are conducting these tabletop exercises involving Federal, 
State, and local law enforcement in their respective regions. In 
addition, there are 72 fusion centers where experts from various 
Federal and local government agencies share information and collaborate 
with private sector participants.
    Supply Chain Risks.--One of the emerging issues that FSSCC members 
are evaluating is the security of the global supply chain. Members 
continue to seek better assurances from our vendors that the major 
information technology and communications hardware and software systems 
that we deploy in our networks employ secure development practices and 
are free from malware or other threats that may have been implanted in 
the supply chain process. For example, in 2010, the sector published, 
the Resilient International Telecommunications Guidelines for the 
Financial Services Sector, highlighting the international risks 
associated with the undersea cables network.\5\ This report identified 
both the risks associated with a critical infrastructure component, 
provided guidelines for managing those risks, and the need for 
increased international collaboration. The FSSCC worked closely with 
FBIIC members, most notably the Federal Reserve Board, and the National 
Communications System, a division of DHS, that works closely with major 
telecommunications providers.
---------------------------------------------------------------------------
    \5\ See https://www.fsscc.org/fsscc/publications/default.jsp.
---------------------------------------------------------------------------
     information sharing lessons learned from recent cyber attacks
    Information sharing is of critical importance to the financial 
services sector, other critical infrastructure sectors and the 
Government. Without it, none of the FSSCC's other top priorities--
crisis event management, threat matrix dissemination and management, 
identity assurance--would be achievable. Although we have made good 
progress in creating information-sharing entities, to share information 
securely and efficiently, we have not adequately tackled the critically 
important issues associated with the timeliness and completeness of 
information. We now need to focus on clarifying and compartmentalizing 
information so that ``actionable intelligence'' can be disseminated to 
responsible parties that will use it to protect critical 
infrastructure. What I mean by ``actionable intelligence'' is redacted 
technical information and contextual information without revealing 
sources and uses or tipping off criminals or adversaries.
    Information sharing among financial institutions, other critical 
infrastructure sectors, and the Government is important for several 
reasons. First, a company that is a victim of a cyber attack is 
concerned about protecting its customers, its reputation and complying 
with regulatory requirements. Second, others in the sector are 
concerned about the impact that this a cyber attack could have on its 
organization and counterparties or provider might have on their 
operations, as well as the potential for systemic risk to entire 
financial services sector. Third, the Government is responsible for 
enforcing laws and promoting protecting critical infrastructure 
protection. The Government also holds important information that is 
both technical, such as malware signatures, and contextual, such as 
what type of entity appears to be initiating the attack. This is due to 
the Government's own operations in cyberspace and other roles including 
law enforcement, defense, and regulation.
    There is a strong need to establish appropriate and well-understood 
protocols to share information so that we collectively understand the 
problems and risks that we face in order to arrive at the right 
response or solution. The fundamental issue of striking a balance 
between confidentiality for criminal investigations and timely 
information sharing remains a work in progress.
    An example of an incident where too much secrecy led to an 
increased exposure was the cyber attack on a major exchange, which was 
discovered by the exchange in October 2010. The exchange alerted its 
primary regulator and law enforcement. For a variety of reasons, 
including an investigation of the attack by law enforcement and 
intelligence agencies, information about the attack and its impact on 
other financial institutions was not disclosed to others in the 
financial services sector for 102 days. This 102-day period included 
year-end, when financial institutions closed their books and prepare 
annual reports. This could have had an enormous impact on employees, 
stockholders, large and small, and the market as a whole. The lack of 
meaningful information for more than 3 months left the entire sector 
unnecessarily vulnerable.
    In response to this event and recent discussions with senior DHS 
officials, the FSSCC and DHS have agreed to collaborate on developing 
guidelines for when information should be shared, especially 
information that is technical and contextual. FSSCC members believe 
that a more transparent decision-making process would accelerate the 
dissemination of information without interfering or undermining 
criminal and National security investigations. We also hope that these 
protocols will elevate the priority that government places on sharing 
information associated with protecting critical infrastructure. Also, 
by leveraging the security clearances that DHS and other Government 
agencies have sponsored for members of the FSSCC, the Government could 
consult with industry experts to better understand the systemic risk 
implications of the cyber events.
        recommendations for improving public-private partnership
    FSSCC recommends the following activities to improve the public-
private partnership with DHS and other Government agencies:
    1. Protecting Critical Infrastructure Through Enhanced Information 
Sharing.--We have made good progress in creating utilities to share 
information securely and efficiently. However, we have not adequately 
tackled the critically important issues associated with the timeliness 
and completeness of information. We now need to focus on clarifying and 
compartmentalizing information so that it can be disseminated via the 
FS-ISAC. This is also important for the Government to better understand 
the significance of information, including the impact on the critical 
infrastructure sectors. We cannot assume the Government will know how 
to evaluate the risks unless experts from the financial services sector 
(or other CIP sectors) have a seat at the table. We also recognize that 
there will be times when the Government cannot consult with industry 
sectors and thus there needs to be clarity as to when and how 
information will be shared.
    As noted earlier in my testimony, FSSCC and DHS have agreed to 
collaborate on developing guidelines for when information should be 
shared, especially information that is technical and contextual. 
Together, we need to learn from the recent breaches and establish 
guidelines where we have more predictability in knowing when 
information will be shared.
    Building trust and enhancing understanding is a compelling reason 
for expanding the number of clearances to senior executives and experts 
in the financial services sector who are in position to 
``operationalize'' timely and relevant threat and attack intelligence. 
We also urge DHS to establish clearer protocols for the sponsorship of 
private sector security clearances that are not directly related to a 
Government contract and for non-U.S. citizens. We recognize that this 
is a fairly new development and one which does not have clear 
protocols, either among the sponsoring agencies, or in the private 
sector. A system that would identify and categorize critical job 
functions into ``need to know'' status should effectively expand the 
community of private sector stakeholders who can get early Government 
notification of significant issues. FSSCC members also suggest better 
``tearline'' documents and the availability of classified information 
on a geographically, disaggregated basis. Moreover, nationality is a 
consideration not covered under current ``cold war''-derived clearance 
protocols as not all the appropriate individual's in corporate 
information security group who have a ``need-to-know'' homeland 
cybersecurity information are U.S. citizens. We propose that the 
clearance mechanism should expand to consider at minimum clearing 
individuals from the UKUSA agreement countries (United Kingdom, Canada, 
Australia, and New Zealand) and other countries, as possible, based on 
government-to-government background check arrangements.
    We need to enhance improve information sharing with the 
communications, information technology, and electricity sectors. 
Currently the FS-ISAC and FSSCC have little to no operational 
transparency into other sectors. This may somewhat be addressed by the 
embedding of personnel in the NCCIC however further policy and 
engagement is required to provide a Common Operating Picture (COP) 
across those dependent infrastructures.
    2. Conduct more exercises and training.--In addition to clearances 
and information sharing, we have found that we build greater trust 
through exercises and training. By routinely engaging in exercises and 
training through tabletop exercise, meetings, and awareness campaigns 
we bring the right public and private sector participants together on a 
regular basis. Working together, building relationships and 
establishing trust are essential parts of creating a culture that can 
share useful and timely information. The embedding of financial sector 
personnel in the NCCIC and NICC is a positive step in that engagement 
process.
    3. Invest in R&D.--In addition to supporting the MOU and CRADAs on 
identity assurance, we also encourage the Government to look to 
emerging research on automated methods of attack detection, 
communication, and prevention. As an example of the possibilities that 
could be considered, DHS released a white paper entitled, Enabling 
Distributed Security in Cyberspace. While this was only a concept 
paper, it suggests a thoughtful, if ambitious vision for the future 
where: ``A healthy cyber ecosystem would interoperate broadly, 
collaborate effectively in a distributed environment, respond with 
agility, and recover rapidly. With a rich web of security partnerships, 
shared strategies, preapproved and prepositioned digital policies, 
interoperable information exchanges, . . . healthy cyber ecosystem 
could defend against a full spectrum of known and emerging threats, 
including attacks against the supply chain, remote network-based 
attacks, proximate or physical attacks, and insider attacks . . .''.\6\
---------------------------------------------------------------------------
    \6\ http://www.dhs.gov/xlibrary/assets/nppd-healthy-cyber-
ecosystem.pdf.
---------------------------------------------------------------------------
    4. Coordinate efforts internationally.--Cybersecurity is not an 
issue that can be defined by geographic or political borders. The 
National Cybersecurity and Communications Integration Center is slowly 
making strides in bringing together industry and Government operational 
capabilities under one roof, breathing the same air, to create a cross-
sector common operational picture about our cyber threats and 
vulnerabilities. The FS-ISAC has a seat in the NCCIC, and both FSSCC 
and FS-ISAC are participating in the Unified Coordination Group that is 
developing the NCCIC's information sharing and incident response 
process.
    The FSSCC recognizes that this is a difficult endeavor--one that 
involves numerous complexities around National security intelligence, 
legal authorities, regulatory requirements, privacy protections, and 
contractual restrictions. We are not where we need to be yet, but we 
are moving in the right direction--to an envisioned end state where 
private sector members of the NCCIC are able to communicate threat 
intelligence in real time to their sector partners and coordinate 
protective or mitigating action jointly with the Government and other 
sectors.
                 comments on cybersecurity legislation
    The committee had also asked for me to comment on cybersecurity 
legislation. In general, the FSSCC is supportive of policies in which a 
``rising tide lifts all boats''. By that I mean the Government should 
offer incentives and, in some cases, require minimum security and 
resiliency standards for utilities that service critical infrastructure 
sectors. These utilities include entities like internet service 
providers and others with whom our sector and other critical 
infrastructure sector are dependent. For example, we need to ensure 
that these utilities adopt practices to protect networks, manage 
incidences, and address our long-standing concerns with internet 
congestion during a time of crisis.\7\ The development of these 
standards should be driven by private sector, consensus-driven bodies. 
What has been lacking is a comprehensive cross-cutting review of the 
cyber risk, mitigation, and regulatory dynamics across all of the 
critical sectors to ensure that any ``minimum standards'' legislation 
can allow specific security gaps in each sector to be addressed without 
imposing one-size-fits-all standards that contradict existing sector 
regulation.
---------------------------------------------------------------------------
    \7\ U.S. Department of Homeland Security, Pandemic Influenza Impact 
on Communications Networks Study, December 2007. http://www.ncs.gov/
library/pubs/
Pandemic%20Comms%20Impact%20Study%20%20Best%20Practices.pdf; GAO, 
Influenza Pandemic: Key Securities Market Participants Are Making 
Progress, but Agencies Could Do More to Address Potential Internet 
Congestion and Encourage Readiness, GAO-10-8, October 2009. http://
www.gao.gov/new.items/d108.pdf.
---------------------------------------------------------------------------
    The FSSCC supports the following provisions:
  <bullet> Commitment to two-way public-private information sharing and 
        cross-sector information-sharing efforts, leveraging the 
        Information Sharing and Analysis Centers (ISACs), the Sector 
        Specific Agencies (SSAs), US-CERT, safe harbors, clearances, 
        and confidentiality guarantees. Such a commitment is vital to 
        facilitate the sharing of actionable and timely information, 
        particularly during cyber emergencies.
  <bullet> Focused efforts to address critical interdependencies such 
        as our sector's reliance on telecommunications, information 
        technology, energy, and transportation sectors.
  <bullet> Leveraging Federal cybersecurity supply chain management and 
        promotion of cybersecurity as a priority in Federal 
        procurement.
  <bullet> Public education and cybersecurity awareness campaigns to 
        promote safe computing practices.
  <bullet> Enhanced international collaboration and accountability in 
        law enforcement and industry, including increased funding for 
        law enforcement and facilitating the development of global 
        cybersecurity standards.
  <bullet> Increasing funding for applied research and encouraging 
        collaboration with Government research agencies on 
        authentication, access control, identity management, 
        attribution, social engineering, data-centric solutions, and 
        other cybersecurity issues. It is only through such public-
        private efforts, combined with adequate funding, that leading-
        edge research in these important areas can enhance our ability 
        to secure on-line transactions, maintain data integrity, and 
        enhance user confidence.
  <bullet> Attention to ICANN and other international internet 
        governance bodies especially as ICANN begins a new application 
        round for what could be as many as a thousand new top-level 
        internet domains later this year. It is vitally important that 
        effective oversight exist to enhance security and privacy 
        protections.
  <bullet> Need for enhanced supervision of service providers on whom 
        financial institutions depend, while at the same time 
        recognizing the role of Federal financial regulators in issuing 
        regulations and supervisory guidance on security, privacy 
        protection, business continuity, and vendor management for 
        financial institutions and for many of the largest service 
        providers. Strengthening Government-issued credentials (e.g., 
        birth certificates, driver's licenses and passports) that serve 
        as foundation documents for private sector identity management 
        systems.
    The FSSCC does not support provisions that provide sweeping new 
authority for the Executive branch to remove access to the internet and 
other telecommunications networks, without clarifying how, when, and to 
what extent this would be applied to our critical infrastructures. Such 
a provision also sets the wrong precedent in light of recent 
restrictions on internet use imposed in other countries.
                               conclusion
    In conclusion, I would like to thank the committee for inviting me 
to testify today on behalf of the FSSCC on the DHS cybersecurity 
mission and how they interact with private sector owners. Both the 
public and private sector financial services organizations recognize 
the importance of improving information sharing as part of continuity 
planning, crisis management, and enhancing resiliency in preparing for 
and responding to significant events. We know that during a real crisis 
we cannot operate as independent entities and thus we must establish 
trusted relationships and plan ahead of time so that we are prepared to 
respond to a real crisis. It is my hope that the good work done to date 
in bridging the public-private divide by FSSCC and DHS continues and 
that we find additional ways to effectively combat those who would seek 
to undermine our economy and stability--be they homegrown or foreign, 
criminal or terrorist, rogue or state-sponsored. It is only by working 
together that we will prevail in the complex and every changing 
internet-connected world.
                      Appendix A: FSSCC Org Chart
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Appendix B: Executive Summary of Sector Annual Report
                           executive summary
    In 2003, the Banking and Finance Sector, hereinafter referred to as 
the Financial Services Sector, was identified as a critical 
infrastructure sector pursuant to Homeland Security Presidential 
Directive 7 (HSPD-7); the U.S. Department of the Treasury was 
identified as the Sector-Specific Agency (SSA) for the sector. As the 
SSA, the Treasury Department works with its public and private sector 
partners to maintain a robust sector that is resilient against manmade 
or natural incidents. The Financial Services Sector is essential to the 
efficiency of world economic activity. This Sector Annual Report 
outlines the requirements for current and future protective programs 
based on HSPD-7.
    Both the private and public sectors, through the Financial Services 
Sector Coordinating Council for Critical Infrastructure Protection and 
Homeland Security (FSSCC) and the Financial and Banking Information 
Infrastructure Committee (FBIIC), respectively, have key roles in 
implementing the Financial Services Sector's critical infrastructure 
and key resources (CIKR) protective programs. Through direct mandates 
and regulatory authority, Federal and State financial regulators have 
specific regulatory tools that they can implement in response to a 
crisis. In addition, the Department of the Treasury--along with the 
FBIIC, the FSSCC, Financial Services Information Sharing and Analysis 
Center (FS-ISAC), and regional partnerships--have developed and 
continue to implement numerous protective programs to meet the 
Financial Services Sector's goals. The protective programs range from 
developing and testing robust emergency communication protocols, to 
identifying critical Financial Services Sector threats, to addressing 
cybersecurity protection needs. The success of the public-private 
partnership has proven critical to the Financial Services Sector's 
achievements through one of the most challenging periods for the sector 
with respect to credit and liquidity risks.
    The scope of the Financial Services Sector includes public and 
private institutions involved in carrying out the primary sector 
functions of clearing, payment, settlement, and trading. Multiple 
organizations perform these functions and collectively represent the 
Financial Services Sector.
  <bullet> Clearinghouses
  <bullet> Commercial banks
  <bullet> Credit rating agencies
  <bullet> Exchanges/electronic communication networks
  <bullet> Financial advisory services
  <bullet> Financial utilities
  <bullet> Government and industry regulators
  <bullet> Government subsidized entities
  <bullet> Investment banks
  <bullet> Merchants
  <bullet> Retail banks
  <bullet> Insurance companies
  <bullet> Electronic payment firms
    Through the public-private partnership, the following vision 
statement for the Financial Services Sector has been established.

``Vision Statement
``To continue to improve the resilience and availability of financial 
services, the Banking and Finance Sector will work through its public-
private partnership to address the evolving nature of threats and the 
risks posed by the sector's dependence on other critical sectors.''

    The Financial Services Sector pursues this vision by working toward 
its three sector goals:
    1. To achieve the best possible position in the face of myriad 
        intentional, unintentional, manmade, and natural threats 
        against the sector's physical and cyber infrastructure;
    2. To address and manage the risks posed by the dependence of the 
        sector on the Communications, Information Technology, Energy, 
        and Transportation Systems Sectors; and
    3. To work with the law enforcement community, financial regulatory 
        authorities, the private sector, and our international 
        counterparts to address threats facing the Financial Services 
        Sector.
    In support of the sector goals, the FSSCC has recently updated its 
mission and objectives, as is further described in Section 3. 
Representing the strategic arm of the Financial Services Sector, the 
FSSCC has established the following objectives:
  <bullet> Identify Threats and Promote Protection
  <bullet> Drive Preparedness
  <bullet> Collaborate with the Federal Government
  <bullet> Coordinate Crisis Response
    The Financial Services Sector's goals and objectives guide our 
activities in managing significant sector risks. Significant sector 
risk considerations have been identified and are described in greater 
detail in Section 2. They are summarized as follows:
  <bullet> Confidence Risk
  <bullet> Concentration Risk
  <bullet> Supply Chain Risk
  <bullet> Infrastructure Risk
  <bullet> Geographic Proximity Risk
  <bullet> Technology Risk
    Management of these risks has resulted in the identification of the 
following potentially significant sector vulnerabilities:
    1. Confidentiality.--Maintaining the confidentiality of clients and 
        meeting all legal requirements for maintaining confidentiality;
    2. Integrity.--Ensuring transactional integrity to support 
        financial transactions; and
    3. Availability.--Ensuring that financial services are available to 
        maintain the smooth flow of capital.
    The sector's goals, initiatives, and activities are in pursuit of 
achieving the four objectives identified above to effectively manage 
sector risks and vulnerabilities.
    The following sections summarize the significant activities that 
are described in subsequent chapters of this Financial Services Sector 
Annual Report.
ES.1 Strategic Goals
    Over the past year, the Financial Services Sector set forth the 
following objectives and goals that drive the FSSCC activities and 
guide activities of the sector's multiple organizations.

------------------------------------------------------------------------
     Strategic Objectives                      2010 Goals
------------------------------------------------------------------------
Identify Threats and Promote   Finalize updated Threat Matrix.
 Protection.                   Disseminate Threat Matrix and build into
                                strategy.
                               Build Threat Matrix into ongoing planning
                                and execution of FSSCC goals.
Drive Preparedness...........  Establish regularized process for
                                escalating events and disseminating
                                information in the form of actionable
                                intelligence.
                               Establish more direct international
                                relationships.
                               Further the undersea cables work.
                               Develop supply chain frameworks.
                               Disseminate CyberFIRE and Cyber Attack
                                against Payment Processes (CAPP)
                                Exercise learning.
                               Support regional coalitions.
Collaborate with the Federal   Establish on-going interaction with (1)
 Government.                    the new White House Cybersecurity
                                Coordinator and (2) DHS/National
                                Security Agency (NSA).
                               Address internet congestion as part of
                                DHS interaction.
                               Develop Identity Management Principles
                                and request for investment.
                               Implement Government Information Sharing
                                Framework initiative with Department of
                                Defense (DoD) and DHS.
                               Develop sector-wide position on Internet
                                Corporation for Assigned Names and
                                Numbers (ICANN).
                               Engage in conversation on cyber and
                                critical infrastructure legislation and
                                determine appropriate next steps.
                               Deliver a finance and banking educational
                                session.
Coordinate Crisis Response...  Expand and improve crisis management
                                response playbooks.
                               Improve usefulness and mindshare of
                                playbooks.
------------------------------------------------------------------------

ES.1.1 Identify Threats and Promote Protection
    The Financial Services Sector is developing a comprehensive All-
Hazards Threat Matrix accounting for over 1,900 individual threats. A 
risk-ranking methodology is being used that can be applied at the 
sector level and adopted by individual organizations to adapt to their 
specific needs. As a major initiative for the sector, begun in 2009, it 
will continue throughout 2010 and serve as the foundation for strategic 
efforts going forward.
    Additionally, the sector published the Resilient International 
Telecommunications Guidelines for the Financial Services Sector 
(Undersea Cables Report), highlighting the international risks 
associated with our undersea cables network. This significant report 
highlights both the risks associated with a critical infrastructure 
component and the need for increased international collaboration.
    Additionally, the sector has elevated its focus on cybersecurity. 
Several exercises have been run to identify cyber threats, and research 
and development (R&D) efforts have been focused on addressing 
vulnerabilities through a collaborative public-private joint effort. 
The sector made significant contributions to the National Cyber 
Incident Response Plan, created new FSSCC working groups focusing on 
Identity Management and Supply Chain issues, and engaged with the 
Director of National Intelligence and the intelligence community on 
multiple cyber issues.
ES.1.2 Drive Preparedness
    The sector has performed multiple exercises testing various 
perceived vulnerabilities and establishing follow-up actions as a 
result of the learning. Significant tests were run to evaluate sector 
preparedness related to social engineering attacks, payment processing 
attacks, and communication during a crisis. In particular, the Cyber 
Financial Industry and Regulators Exercise (CyberFIRE) and Cyber Attack 
against Payment Processes (CAPP) Exercises were jointly executed by the 
FSSCC, FS-ISAC, and FBIIC and included the U.S. Secret Service, the 
Federal Bureau of Investigation (FBI), and the U.S. Department of 
Homeland Security (DHS), plus more than 800 individual participants.
    Sector crisis response playbooks have been created and strategic 
and tactical efforts have been delivered to clarify lines of 
communication critical in crisis response. The sector coordinated over 
45 operators and associations and performed multiple other FS-ISAC and 
regional exercises throughout the year.
ES.1.3 Collaborate with the Federal Government
    The Financial Services Sector has stepped up its partnership with 
the U.S. Government, academia, and related sectors. The sector has 
established successful working relationships with academia, the 
National Institute of Standards and Technology (NIST), the Department 
of Homeland Security, the National Science Foundation (NSF), and the 
Networking and Information Technology Research and Development (NITRD) 
program; participated in a roundtable with the DHS Secretary; and 
established a working dialogue with the White House's Office of Science 
and Technology Policy (OSTP) through Aneesh Chopra.
    The sector has further contributed significantly to Government-led 
initiatives in identity management and the development of incident 
response plans. Coordination among intelligence agencies, regulators, 
other Government agencies, and the private sector has received 
considerable focus and is a hallmark of the sector's achievements.
    The FS-ISAC has collaborated with DoD and DHS to launch the 
Government Information Sharing Framework initiative. This pilot program 
has been implemented in 2010 and consists of large-scale information 
sharing of threat and attack data between the Federal Government and 
financial services firms that have agreed to participate. The 
Government's plan is to use this as a public-private sector 
information-sharing model for other sectors and other Federal 
Government agencies to follow.
ES.1.4 Coordinate Crisis Response
    The sector collaborated to develop crisis response plans for all 
hazards, as well as specific plans for hurricanes. The sector provided 
leadership for recent events requiring a coordinated response, 
including Haiti, pandemic flu, and hurricane situations.
ES.1.5 Conduct Research and Development
    Led by the FSSCC R&D Committee, the sector has identified and 
progressed on seven R&D priorities it has established (further 
described in Section 5):
  <bullet> Advancing the State of the Art in Designing and Testing 
        Secure Applications
  <bullet> Making Financial Transaction Systems More Secure and 
        Resilient
  <bullet> Improving Enrollment and Identity Credential Management
  <bullet> Understanding Human Insider Threats and Developing 
        Deterrence and Detection
  <bullet> Developing Data-Centric Protection Strategies to Better 
        Classify and Protect Sensitive Information
  <bullet> Devising Better Measures of the Value of Security 
        Investments
  <bullet> Developing Practical Standards to Reduce Risk and Enhance 
        Resiliency.
    The FSSCC R&D Committee has proposed to senior White House and 
other Government officials a public-private sector collaboration to 
improve identification validation and has drafted a proposal on an 
identity credential verification gateway. Further, it participated in 
the Federal Government's National Cyber Leap Year Summit and put forth 
the Financial Communications and Authentication Pilot (``testbed'') in 
response to discussions among the FSSCC R&D Committee, senior White 
House personnel, and NIST and DHS officials.
    Outreach for R&D efforts has been significantly expanded. Several 
comment letters have been sent, and engagements have occurred with 
multiple Government organizations, including the U.S. Department of 
State on ``Current Challenges and Future Strategies for Improving 
Identity Management,'' the Critical Infrastructure Protection Congress 
on identity management, and the Internet Corporation for Assigned Names 
and Numbers (ICANN) on the expansion of top-level domains, among 
others.
ES.2 Sector Challenges and Looking Forward
    Looking forward to the next year, the Financial Services Sector 
will build on its substantial success achieved in the past year. While 
priorities will be set later in the year, significant efforts are 
expected to focus on the following:
  <bullet> Evaluating the top threats to the Financial Services Sector
  <bullet> Coordinating multiple Government activities
  <bullet> Researching internet congestion
  <bullet> Investigating ICANN proposals to expand top-level domains
  <bullet> Exploring identity management issues
  <bullet> Expanding international coordination.
    Mr. Lungren. Thank you very much.
    Now Dr. Amoroso.

 STATEMENT OF EDWARD AMOROSO, SENIOR VICE PRESIDENT AND CHIEF 
                     SECURITY OFFICER, AT&T

    Mr. Amoroso. Well, thank you very much.
    This is a topic I have spent the last 30 years thinking 
about exclusively. So I am not a lot of fun at cocktail 
parties. But it is something that I know a fair bit about.
    Let me see if I can boil down the fundamental issue of 
cybersecurity in particular as it relates to homeland security. 
It is something that I think people can pretty well understand. 
That is how you protect your home computer.
    Like if I had asked everybody in the room to take a moment 
and think about what you do at home, you probably went to 
Staples or something and bought, you know, a box of internet 
security or it came with the computer. You enabled it, and that 
is pretty much it. You are completely on your own. Like you 
might call the Geek Squad if you get in trouble, or you might 
have a really smart teenager in the family who can do something 
if you get hopelessly tangled up. Or you might just give up and 
go buy a new computer, right, if you think that you are full of 
malware and other types of things.
    This experience that we all have at home is exactly the 
experience that small businesses and Government agencies and 
large businesses have as well. We go out and we buy software 
and systems that we hope are going to work, and then we are 
pretty much on our own. I know in each of the districts that 
you represent, you probably hear that from small business 
owners all the time. Citizens are starting to recognize that 
this is an issue.
    I think from a homeland perspective, this causes a big 
problem, right, because, as you all know, the new battlefield 
that we work from a cyber perspective includes all our home 
PCs, right? That is how botnets are created. We are in some 
sense kind of negligent in protecting our PCs, and criminals 
and terrorists and enemy states take advantage of that and 
create weapons in that respect.
    So we have prepared some formal remarks that we have issued 
that have some suggestions, but I just want to summarize a 
couple of them.
    If you think about that question of coordination, like when 
a group is under attack, it is the case now in 2011 that there 
is no good way to share information in real time. I know that 
at AT&T, for me to try to do something like that with 
Government involves as many lawyers as there are in this room 
for us to just share something. It is ironic that I can 
probably share information back and forth with a hacking group 
with complete impunity, but with the Government I have to have 
a team of lawyers present.
    So that concept and the whole issue of a National sort of 
cyber coordinating capability that has real-time information 
sharing--and I don't mean after the fact. I mean something that 
would allow us in real time to share and to coordinate.
    Let's say you are in Brooklyn and you are living and you 
see something funny going on that you are not sure is normal in 
your neighborhood. We are all kind of trained to kind of take 
action. You can imagine that a nation of businesses and 
agencies and individuals who in some sense have it in their 
best interest to behave accordingly and to share that 
information would make us all a heck of a lot safer.
    There really is no mechanism for that. I know at AT&T 
sometimes we find that kind of frustrating. Because we have 
information that may be very useful at times to DHS, and we 
know DHS does as well. I think the NCCIC is a good example of 
moving in the right direction toward trying to sort of connect 
different groups together. But I think the essence of real 
time, the essence of situational awareness, these are things 
that are very immature in our country right now.
    I would add, you will see in the remarks that we have 
prepared for the group, it extends to global as well. It turns 
out that political boundaries don't map too nicely to 
cybersecurity infrastructure. There are ways that we do naming, 
for example, on the internet, the way you get your website 
named or your e-mail address named. These are global standards, 
and they run on systems that transcend political boundaries. I 
have infrastructure at AT&T that is located around the globe, 
under different jurisdictions with different laws. So even if 
we got our act together and really laid out a good domestic 
plan, it is not enough. We have to go out and work it globally.
    So I hope you will read our prepared remarks. We make some 
suggestions there. But keep in mind that the challenge you have 
at home with your home PC is a good model for the kinds of 
problems that Government agencies and businesses have as well.
    So I appreciate the invite and look forward to the 
discussion.
    [The statement of Mr. Amoroso follows:]
                  Prepared Statement of Edward Amoroso
                             April 15, 2011
    Chairman Lungren and Ranking Member Clarke, I would like to thank 
you and all the Members of the subcommittee for this invitation to 
address the significant challenges facing the private sector and the 
Department of Homeland Security in securing critical infrastructure 
from cyber threats. In my testimony, I will try to identify current 
challenges as well as the actions that can be taken to address those 
challenges; and in particular how to coordinate the Government's 
cybersecurity capabilities with the private sector's investment in 
infrastructure and operational capabilities.
                             my background
    I currently serve as senior vice president and chief security 
officer of AT&T, where I have worked in the area of cybersecurity for 
the past 26 years. My educational background includes a Bachelor's 
degree in physics from Dickinson College, as well as Masters and Ph.D. 
degrees in computer science from the Stevens Institute of Technology, 
where I have also served as an adjunct professor of computer science 
for the past 22 years. I am a graduate of the Columbia Business School, 
and have written many articles and five books on the topic of 
cybersecurity. My most recent book is entitled ``Cyber Attacks: 
Protecting National Infrastructure'' (Butterworth-Heinemann, 2011).
    My current responsibilities include design and operation of the 
security systems and processes that protect AT&T's vast domestic and 
international wired and wireless infrastructure. This infrastructure is 
the core asset that permits AT&T to provide the wide variety of 
advanced network services that AT&T offers to its many millions of 
customers around the world, ranging from the largest global business 
enterprises to individual consumers. AT&T has also had the opportunity 
to work with the Department of Homeland Security (DHS) in a variety of 
ways in the decade since the Department was created.
    For instance, we actively participate with DHS in the National 
Cybersecurity Communications Integration Center (NCCIC) in both its 
National security/emergency preparedness and cybersecurity missions. We 
are also active participants in the President's National Security 
Telecommunications Advisory Council (NSTAC) and the Communications 
Sector Information Sharing and Analysis Center, both of which are 
administered by DHS. We have also supported DHS in the testing and 
evaluation of prototype network-based cybersecurity capabilities over 
the last several years. Finally, we were the first company to obtain a 
formal Authority-To-Operate to provide Trusted Internet Connection 
service to Government Agencies through the General Services 
Administration (GSA)/DHS joint Managed Internet Protection Service 
initiative under the GSA Networx contracts.
                         what is cybersecurity?
    Simply put, from the perspective of protecting the Nation's 
critical infrastructure, cybersecurity is the ability to protect 
critical systems from disruption, or critical information from 
alteration or theft. Potential threats range from disgruntled 
individuals to criminal elements to transnational actors to 
sophisticated and well-resourced nation states. Motives can range from 
mischief to deliberate acts of hostility through sabotage and 
terrorism. The methods and forms of infrastructure intrusion are 
continually advancing so as to bypass standard preventive measures such 
as the application of firewalls and intrusion detection systems between 
the critical system and the internet at large. One such form of 
evolving cyber attack uses ``botnets''--which are run by malicious 
parties who are increasingly adept at harnessing the power of dispersed 
personal computers and other smart devices attached to the Nation's 
networks and using them to attack unsuspecting victims.
    As the largest provider of communications and network services in 
the world, AT&T takes very seriously its responsibility to protect our 
infrastructure and our customers from the vast and ever-changing cyber 
threats. Cybersecurity is a business imperative at AT&T, and we work 
very hard at it, investing significant resources to innovate and keep 
pace with technology that may be either the source or target of the 
threats. The size and scope of AT&T's global network, coupled with our 
industry-leading cybersecurity capabilities, gives AT&T a unique 
perspective into malicious cyber-activity. AT&T offers one of the 
world's most advanced and powerful global backbone networks, carrying 
23.7 Petabytes of data traffic on an average business day to nearly 
every continent and country (a Petabyte is a million billion bytes of 
data, or a ``one'' followed by 15 zeros), and we expect that to double 
every 18 months for the foreseeable future. Our intelligent network 
technologies give us the capability to analyze traffic flows to detect 
malicious cyber-activities, and in many cases, identify very early 
indicators of attacks before they have the opportunity to become major 
events. For example, we have implemented the capability within our 
network to automatically detect and mitigate most Distributed Denial of 
Service Attacks within our network infrastructure before they affect 
service to our customers, and we continue to improve our ability to 
provide global coverage to mitigate denial-of-service attacks from 
multiple locations across the United States, as well as nodes in Europe 
and Asia. We are constantly improving our cyber capabilities, including 
the ability to detect and mitigate Advanced Persistent Threats, the 
most sophisticated and pernicious forms of cyber attack.
                         what needs to be done?
    I would like to outline four broad themes for your consideration 
during today's hearing. Improving the overall cybersecurity posture of 
the United States is a daunting task. We cannot undertake this 
challenge unilaterally--it is clearly a global issue in all its 
dimensions. The administration and the Congress have put forth a 
variety of ideas and initiatives on how we can begin to tackle this 
challenge; some are helpful, and some would stifle the innovation and 
flexibility we need to identify and respond to the ever-changing 
threats. Improving our National cybersecurity posture is a long journey 
that will not be solved by simple pronouncements or regulatory 
dictates. We can, however, start to put some foundational elements in 
place to build on for the future.
1. Build a Collaborative Active Cyber-Defense Capability.
    First and foremost, the United States needs to build a 
collaborative active cyber-defense capability. The global 
communications infrastructure is the primary vehicle for delivery of 
cyber attacks against U.S. interests, yet there is no comprehensive 
coordination mechanism for rapidly detecting and analyzing attacks and 
responses. Each Tier One communications network operator and service 
provider monitors its own network to varying degrees, with varying 
capabilities to mitigate or block attacks. In addition, the multiple 
Government programs which already exist are focused on monitoring 
traffic to and from multiple Government networks--none of which are 
operationally integrated. Given the increasing sophistication and scope 
of cyber attacks, we can no longer expect that individual companies or 
consumers, or disparate Government network monitoring programs, provide 
adequate protection against evolving threats.
    Attack-related protective information might be known to the Federal 
Government, for example, but otherwise unknown to private industry. In 
the event that a Government agency becomes aware of a malicious attack 
signature that could be deployed into intrusion detection systems to 
protect industrial, non-Government assets, the Government should have 
the confidence that it can be so deployed without further delay or 
review. A collaborative active cyber-defense capability to detect, 
analyze, and mitigate malicious cyber activities in the core networks 
that make up the internet itself will enable cyber attacks to be 
detected and attempts be made to stop them before they reach their 
target.
    Such a capability should leverage and build upon the existing 
cybersecurity capabilities of the Tier One network operators and 
service providers whose networks are the core of the internet in the 
United States, as well as the complimentary capabilities of the 
security technology and software industries. Critical National systems, 
large and small business, industrial concerns, and individual internet 
users can all be better protected by this umbrella approach. Combining 
these elements to work in a collaborative and coordinated fashion can 
provide the basic foundation for the active cyber-defense capability. 
National intelligence capabilities to identify cyber threats and 
provide advanced warning can also be leveraged. In this way, a new 
collaborative cyber defense capability will both feed into and 
strengthen existing public-private coordination and response efforts.
2. Government Leadership in Acquisitions and Cyber Management.
    The United States Government should lead by example in 
cybersecurity. The Federal Government is the largest single purchaser 
of information technology and network services in the United States, 
and its leadership and buying power can have great influence on the 
cybersecurity marketplace. Several worthwhile Federal initiatives are 
in place to improve cybersecurity for the ``.gov'' domain, such as the 
Trusted Internet Connection effort by the Office of Management and 
Budget (OMB) and its instantiation via the General Service 
Administration/Department of Homeland Security joint initiative on 
Managed Trusted Internet Protection Service, but they are being applied 
inconsistently. The Department of Defense also has its own effort to 
protect ``.mil'', separate from the ``.gov'' efforts. These initiatives 
do not yet take full advantage of the portfolio of managed security 
services offered by many private sector network service providers, such 
as network-based protection against Distributed Denial of Service 
(DDOS) attacks. The Federal Government needs a clear and comprehensive 
strategy for cybersecurity of all Federal systems which make up 
``.gov'' and ``.mil''--one which effectively leverages existing 
cybersecurity capabilities offered by the network service providers.
    Further, the current roles and authorities of the various Federal 
agencies overlap and are unclear with respect to cybersecurity for 
Federal Government infrastructure, as well as the protection of other 
critical infrastructure, National assets and individual consumers. 
Congress can lead by establishing the respective and definitive roles 
and authorities of the various Executive Branch elements involved in 
all aspects of cyber security--including the National Security Council 
and the Cyber Policy Coordinator, the Office of Management and Budget, 
the Office of Science and Technology Policy, the Department of Homeland 
Security, the Department of Commerce including the National Institute 
of Standards and Technology and the National Telecommunications and 
Information Administration, the Department of Defense including U.S. 
Cyber Command and the National Security Agency, the Department of 
State, the Federal Communications Commission, and the Federal Trade 
Commission. The United States needs a unified Federal effort on 
cybersecurity with a clear understanding of the roles involved--not the 
confusion, inconsistency, and overlap that currently exists.
3. Global Strategy.
    The United States must move forward aggressively to create a 
comprehensive strategy for addressing global cooperation in 
cybersecurity. We must reinforce the leadership of the United States in 
shaping the future of the internet, and assuring its stable, reliable, 
and secure operation, concurrent with the expansion of U.S. enterprise 
in the global internet marketplace. In particular, all members and 
participants of the global internet community must achieve consensus on 
the fundamental point that malicious cyber activities of any sort will 
simply not be tolerated. Concurrent with these efforts, Congress should 
also expand incentives for investment by the private sector to help 
invigorate U.S. technology leadership in cybersecurity and the 
internet.
4. Cyber literacy.
    We all must redouble our efforts in cybersecurity education and 
awareness across the full spectrum of the internet user base--from the 
boardrooms of our largest companies to the millions of individuals who 
surf the 'net. Current efforts in cybersecurity education and awareness 
are fragmented and the messaging is often confusing. The ultimate key 
to improving our National cybersecurity is technology innovation driven 
by market demand from informed users and purchasers of all kinds. By 
creating market demand for cybersecurity through heightened consumer 
awareness, we can spur fundamental security innovation at all levels of 
the internet eco-system, and allow the United States to continue as a 
leader in internet development. To that end, Congress should designate 
a lead agency on cybersecurity education, and support that designation 
with an appropriate level of funding to make it effective. The roles of 
other Federal agencies in supporting this effort should also be 
clarified. AT&T is itself actively engaged in the provision of 
cybersecurity information and protective tools to our customers, and 
actively participates in pan-industry cyber awareness education efforts 
such as ``Stop.Think.Connect,'' the coordinated messaging effort 
spearheaded by the Anti-Phishing Working Group and the National Cyber 
Security Alliance and comprised of Government agencies, private sector 
entities, and not-for-profit corporations.
    In the past, cybersecurity legislative proposals have included a 
variety of regulatory schemes, such as certification regimes, that, 
while well-intentioned, are too often the antithesis of innovation--
such requirements could have an unintended stifling effect on making 
real cybersecurity improvements. Our cyber adversaries are very dynamic 
and ever more sophisticated, and do not operate under a laboriously 
defined set of rules or processes. The challenges we face in 
cybersecurity simply cannot be solved by imposing slow-moving, 
consensus-based bureaucracy on those who build, operate, and use cyber 
space. Overbroad regulation and certification requirements can have 
unintended consequences, such as emphasizing the status quo by focusing 
on yesterday's challenges. An overly prescriptive approach can only 
serve to stifle internet innovation and the technology leadership of 
the United States in the global information infrastructure.
    The internet itself was created through innovation. Some key early 
investments by the Government helped spur that innovation. Congress and 
the administration have leadership roles to play in assuring that the 
United States continues to focus on technology innovation. Burdening 
the private sector with the cost of unnecessary and ineffective 
regulations and processes is contrary to that objective, and will only 
slow advances in cybersecurity. Congress must insist on and support 
initiatives that provide the flexibility needed to deal with the 
dynamics of the threat and the technology, while creating innovation 
and investment through market demand.
    I thank the subcommittee for its timely and focused attention on 
cybersecurity, and I look forward to providing on-going guidance, 
assistance, and recommendations as we collectively work to reduce the 
cybersecurity threat to our Nation and our critical infrastructure.

    Mr. Lungren. Thank you very much.
    I thank all the panelists for your testimony.
    We will go into a round of questioning of 5 minutes a 
piece, and I will start with that.
    Dr. Amoroso, in your testimony you talked about if we were 
to have enhanced market demand for cybersecurity through 
heightened consumer awareness that might be an element to help 
us along the way in creating those kinds of mechanisms 
necessary from the ultimate consumer to major corporations.
    This is one of the things that has always been presented to 
me. How do we make it bottom-line relevant for both individuals 
and businesses? Because when you say increasing consumer 
awareness will lead to that, that presumes that people will be 
aware enough to spend the money to do those things that are 
necessary and to spend the time to take those simple steps that 
would be necessary to engage those systems that they have on a 
regular basis.
    Do you have any suggestions about how we do that, 
particularly with corporations so that corporations--look, in 
the financial services industry and in the communications 
industry, I think it is fairly more self-evident to people 
that, bottom line, it is important. Cybersecurity destroys your 
very product, your very service.
    In others, they might hedge and say, well, the chance that 
someone is going to attack me in a way that is really going to 
hurt me may not be that great. If they really do succeed, that 
would hurt me, but the chances of them doing that are not very 
great. So how can I justify that to my shareholders?
    Could you give us some insight on that?
    Mr. Amoroso. Well, one thing Government can do is lead by 
example. Certainly I think a lot of the cybersecurity 
mechanisms that are laid out, say through GSA and DHS and other 
places, are applied pretty unevenly. I know that my team owns 
and operates infrastructure in support of the GSA network's 
MTIPS program, which is a trusted internet connection. I will 
say that it is applied somewhat unevenly. There are some 
excellent services that GSA provides, data analysis service, 
real-time capabilities for making sense of what is happening on 
a given network.
    I think that one of the responsibilities of Government is 
to look first inward at civilian and defense and other types of 
agencies, even State and local to the degree that we have that 
kind of jurisdiction, and to show by example that not only is 
this important but it can actually be done.
    There are two problems. One is, a lot of groups--to your 
point--don't necessarily see it as urgent. But perhaps more 
troublesome, even if they saw this urgent, they are not really 
sure what they should even be doing, right, just as you would 
at home.
    If I convinced you tomorrow that identity theft was the 
most important thing in your life, how would your PC usage 
change? You would probably shrug and say, all right, I am a 
believer. What do I do?
    We start these things by saying how complex a problem it 
is. Here is one of the dimensions that makes this particularly 
troublesome for this committee. Once we get our arms around 
some techniques that seem to work, the technology has already 
changed.
    I am guessing most of the people in here have a Smartphone 
in their pocket. That is an internet-connected computer that 
you have in your pocket that probably has more power than a 
data center had when you started your career, and now you carry 
it around with you in your pocket. Just graph that out another 
10 years, and that is the threat that we should be planning for 
now, not the threat that exists today. It makes it extremely 
difficult, because the technology changes so dramatically.
    So, again, cooperation, coordination, those are the types 
of things that we really need to foster. Because the hacking 
community seems to do that maybe even better than we do as a 
Federal Government.
    Mr. Lungren. Ms. Carlin, if you could respond to that. 
Also, you made some suggestions about how we might be able to 
improve some things in a coordinating council. Part of that is 
relationship building. You can have it all in the schematic, 
but unless people have trust that they can share information 
they won't do that and not even get to Dr. Amoroso's point 
about how you make it in real time. Could you just comment 
first on the bottom-line relevance and then secondly about 
specific improvements maybe we need on the Government side with 
respect to a coordinating council?
    Ms. Carlin. Sure. Thank you.
    As to the first question, I guess I think of it a little 
differently maybe than Dr. Amoroso in the following sense: Many 
of the institutions that make up the financial services 
marketplace, including the critical infrastructure components 
we depend on, are then each regulated often by different 
regulators. Many of the regulators in financial services 
already have robust standards around data security principles 
and standards they expect the banks and other regulated 
entities to observe.
    Where I think there is really a significant remaining gap 
is in what I think of as utility standards. There are utilities 
operating that constitute critical infrastructure assets who 
themselves are not subject to baseline minimum standards 
related to data security.
    Now I don't think of that, quite frankly, as regulation or 
legislation, for that matter but, rather, baseline minimum 
operating standards, recognizing the interconnectedness and 
interdependence that we all have. A failure of one represents a 
failure of all, and we have seen it over and over and over 
again.
    As to the second question and our specific recommendations, 
what we are recommending is a documented protocol that will 
provide a more regularized and repeatable process to the 
decision of when to disclose information to the community. So 
rather than making it up each time as we go along and treating 
it almost as an artist's project, let's inject some science 
into that question. What are the considerations that the law 
enforcement, intelligence, regulatory, and private industry 
communities bring to bear when an event happens? How do we 
appropriately balance, as an example, the importance of an on-
going investigation with the public policy considerations 
related to disclosure? The event that I refer to in my 
testimony, the 102-day delay, cut across fiscal year end for 
the vast majority of public companies in the United States. How 
did we do that without this information?
    Mr. Lungren. Thank you very much.
    I recognize now for 5 minutes the Ranking Member from 
Brooklyn.
    Ms. Clarke. Thank you, Mr. Chairman.
    Mr. McGurk, you have told my staff on previous occasions 
that when your office conducts analysis of control systems in 
critical infrastructure sectors, such as the electric sector, 
they often report to you that those systems are air gapped or 
physically separated from their business system. But, in fact, 
when you check their system, that is almost never the case. Can 
you tell us about that, please? Is it your experience that, 
once this is pointed out, that the companies fix the problem or 
do they just ignore it? Are there other sectors where this is 
the case?
    Mr. McGurk. Yes, ma'am. Thank you very much for that 
question.
    Indeed, the results of our on-site assessments as well as 
our incident and response events have identified that in no 
case had we ever found a situation where the operations network 
and enterprise networks were fully air gapped. There were 
always types of connections and, for many systems, very good 
reasons why they are connected. The challenge runs the gamut of 
service-level agreements, regulatory reporting requirements, or 
other information-sharing information. So there are good 
reasons.
    What we found is that not necessarily is there a good cyber 
hygiene approach to securing those communications networks or 
those nodes. There is technology available which provides 
unidirectional flow of information that cannot be breached so 
that they could put processes and procedures in place to 
prevent the flow of information or preventing a malicious actor 
from coming back into those networks and those systems. So 
those technologies are out there, and they have been analyzed, 
and they have been validated by various members of our National 
lab complex.
    We work closely with the private sector in identifying 
those vulnerabilities. Once we do, in every case, the asset 
owners and operators have taken necessary and proactive steps 
to close or mitigate those vulnerabilities by actually 
incorporating new procedures or new technology to mitigate that 
risk. The private sector has been very responsive in complying 
with those requirements and those necessary risk mitigation 
strategies.
    Ms. Clarke. So in speaking with the sector now that that 
has been identified, has there been a new terminology that is 
utilized? Because I mean I am just trying to think of the 
mindset that would believe that, you know, they have got this 
air gapped situation in place and not really acknowledging the 
vulnerability that exists because of the connection. Has there 
been a change in thought from your perspective in working with 
the sector?
    Mr. McGurk. In each case, in several sectors that we have 
worked with and many of the sectors are being proactive about 
it, they are focusing on trusted connections, as opposed to no 
connections. People recognize that there is a need for the 
connections, but they must be trusted connections. There are a 
number of industry and Federally identified standards which 
focus on increasing that level of security and that level of 
trust.
    So, yes, ma'am, they are certainly taking those necessary 
steps.
    Ms. Clarke. Wonderful.
    Mr. Cauley, it is good to see you again; and thank you for 
participating in the Electric Infrastructure Security Summit on 
Tuesday. Your contributions were very valuable, and your 
presence here today is very important as well.
    I want to follow up with you on the question I just asked 
Mr. McGurk. Do you recommend that critical control systems be 
air gapped? What are some of the recommended or required 
approaches? How are you ensuring that the electric sector 
companies are putting them in place? I think this sort of goes 
to Ms. Carlin's point with respect to the financial sector. It 
is the utilities that I think we are all relying on as part of 
an ecosystem, if you will.
    Mr. Cauley. Ranking Member Clarke, I think you have really 
hit on a really critical issue. The challenge is the power 
system, if you look at it from the bulk power all the way down 
to the meter, is everywhere. There are hundreds of thousands of 
substations. We are distributed on down every street and every 
corner. So the concept of air gapping the power system is 
really a conceptual one, and I think it has merit, and we are 
looking at it.
    I agree with most of the comments of Mr. McGurk. I think 
the awareness of the industry has improved. There have been 
efforts. You have vendors or employees who can dial in remotely 
and access equipment to do maintenance and special tasks.
    The number of those ports have been reduced. The number of 
interfaces between the control systems and the business systems 
have been reduced. I think there is a general awareness. But to 
say we could air gap the power system is really challenging 
just because of the hundreds of thousands of locations and 
computers and equipment. So I think we have to challenge 
ourselves.
    Also, there is an enormous dependency between operating the 
power grid and the communications that underlie it. Many of the 
companies depend on telecom companies, phone companies for the 
wires that connect the communications between the power grid 
stations. So it is an important issue.
    Can we get to an air-gapable power system or an electric 
system? I think we are a ways away from that. Right now, we are 
prioritizing on critical assets and making sure they are 
firewalled and protected and that we have proper protocols.
    I think the issue of one-way data communications is new. We 
are pressing to get that more widely used in the industry.
    Thank you.
    Ms. Clarke. Thank you, Mr. Chairman.
    Mr. Lungren. Mr. McCaul from Texas is recognized for 5 
minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    I am not Mr. King. I just wanted to see what it felt like 
to be King for a day. I hope Pete is not watching this hearing. 
It feels good.
    Let me thank the witnesses for being here.
    We have had hearings on the dot-mil and the dot-gov; and 
today's hearing, in my judgment, is on the dot-coms and how do 
we protect the private sector that controls a majority of the 
critical infrastructures? What can the Government do and what 
can we do in Congress in terms of the legislation? I think 
there is some legislation out there--our first credo should be 
to do no harm. I think sometimes we legislate, and there is a 
law of unintended consequences, and I will get to that in a 
minute.
    I remember working at the Justice Department, with the FBI, 
and then the ISACs came around, and they have been around for 
about a decade. We are still not there, in my judgment, with 
the ISACs in terms of full--Dr. Amoroso, as you mentioned--full 
real-time information sharing.
    You made a comment that I wanted to follow up on that, 
thought it was real interesting, that you need a team of 
lawyers to talk to the Government. I know there is a FOIA 
exemption for critical infrastructure sharing, but I don't know 
if that is always applied or if that exemption always attaches 
to that information sharing. But could you elaborate, Doctor, 
on that point that you made?
    Mr. Amoroso. This is a concept I know you are aware of, 
signature. So somebody figures out that there might be an 
attack, and if you look for this particular file or this 
command or some little tip that would help either an operator 
or a government or anybody figure out that this attack is going 
on, it is sort of the currency that we all work in. That is how 
we tip each other off in cybersecurity. We provide signatures.
    For the Government to provide a signature to a carrier that 
we would then embed into our services to protect customers and 
so on and so forth, there is a tremendous lack of clarity 
around whether that is legal or not or whether we would be 
operating as an agent of the Federal Government or whomever.
    As I sort of joked, if I am wandering around a hacker 
conference and somebody gives me the same information, not in 
Government, some hacker dude with a Grateful Dead t-shirt on or 
something, I pop it right into our infrastructure and 
everything works great. So that lack of clarity, it really 
points to the fact that, depending on which attorneys you are 
talking to or which person, some might say, oh, no, no, no, no, 
you can't do that. Others would say, no way can you do that. I 
work for a very conservative firm, so we are going to err on 
the side of not doing it. So we need clarity there.
    Mr. McCaul. That is an interesting point. Mr. McGurk, how 
can we fix that? What would you propose? I assume we are going 
to be legislating cyber out of this committee, subcommittee. 
What would you propose?
    Mr. McGurk. Yes, sir. Actually, we are currently sharing 
that information with our private-sector partners but not 
insofar as signatures. Because, going back a bit, a signature 
is specific to whatever box--to use the analogy--that you 
pulled off the shelf at Staples. It may be system-specific or 
product-specific.
    So what we can share and derive are the smaller part of 
that called indicators, and we publish those indicators 
routinely. Those indicators can then be taken by the technical 
representatives of each of the facilities or firms and generate 
those signatures that then are specific to those pieces of 
equipment. So we are currently doing that.
    In fact, in light of the recent situation with the two-
factor authentication issue, we produced about 26 indicators 
that asset owners and operators could then load into their 
systems to look for malicious activity. So it is a very complex 
but multi-pronged approach that we are taking to provide 
actionable intelligence to the community.
    Mr. McCaul. I agree with Dr. Amoroso. I think clarity would 
be helpful, whether that comes through legislation or through 
policy within the Executive branch.
    But, lastly, just to throw out there, how do we incentivize 
the private sector to harden its networks? AT&T, certainly you 
guys are ahead of the curve, but a lot of companies aren't. 
There is the Senate bill which is very comprehensive. It has 
DHS regulating the industry. I personally don't agree with that 
legislation. But how can we incentivize the private sector to 
harden their networks?
    Mr. McGurk. Sir, I believe a comment was made earlier that 
we can lead by example, and that is one of the areas that we 
are really looking to focus on both at the National and at the 
Federal and international level, is how can we provide 
guidelines and steps? The Department actually publishes and 
updates on a quarterly basis procurement standards for asset 
owners and operators that are buying new technology or 
incorporating new pieces of equipment. In addition, we write a 
comprehensive guide for standards developers so that they 
understand what the market is driving as far as requirements.
    So by providing that and also identifying best practices 
through either Federal standards or industry adopted standards, 
we can identify what a network topology can and may look like 
to increase security.
    But, again, it is more descriptive in nature, not 
proscriptive. Because no one network or network configuration 
is going to operate--an automobile manufacturing plant, a 
chemical processing facility, or a nuclear power plant, they 
are all unique and different, which is why we have to take a 
very sector-specific approach.
    Mr. McCaul. That is a good point.
    I yield back.
    Mr. Lungren. The gentlelady from California, Ms. 
Richardson, is recognized for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    I have got five questions, so hopefully we can get through 
them pretty quickly.
    Mr. McGurk, what would you rate as the rating for DHS when 
you hosted your Cyber Storm III exercise?
    Mr. McGurk. As far as an opportunity to learn and to 
explore, I would say it was probably, on a scale of 1 to 10, 
about a 7. Because we had a very large play this time with both 
of our State partners, private-sector partners, and 
international partners. We learned a lot of important lessons, 
and this was actually the first time we got to exercise the 
National cyber incident response plan and execute it in 
accordance with the system and the NCCIC. So it really helped 
us out.
    Ms. Richardson. Have you briefed this committee on that 
yet?
    Mr. McGurk. I don't believe so, ma'am, but I would have to 
check with our team back at headquarters.
    Ms. Richardson. If not, if you would work with Mr. Lungren 
and with our staff and hopefully maybe we could get some 
further information on it.
    No. 2, do you think the NCCIC, which is your organization, 
should be voluntary with the private sector?
    Mr. McGurk. It is currently voluntary with the private 
sector, ma'am. We have----
    Ms. Richardson. I said, do you think it should be 
voluntary? Or should it be mandatory?
    Mr. McGurk. I am not really sure what you mean by voluntary 
versus mandatory. As far as participation, we open it up to the 
broad sectors. Each of the sectors have the potential of being 
represented, but the products that we produce and the 
information that we share goes to the broad community. So we do 
not restrict it in any way.
    Ms. Richardson. No. What I mean is, the private sector--
let's take, for example, AT&T. Although it is a private 
company, you know, has its own business, it is still providing 
a very important service that we, as the American public, 
expect to be able to use our phones in the event of an 
emergency. I am saying, has there been a discussion ever that 
maybe your role would need to be a mandatory or a more formal 
relationship versus voluntary involvement?
    Mr. McGurk. No, ma'am. At the present, we are not looking 
at that particular type of involvement. AT&T has been 
represented in the National Coordination Center for 
Telecommunications since its inception as well as the NCCIC 
since October, 2009. So they have been a direct partner with us 
since the beginning of the organization.
    Ms. Richardson. Are there any industries that you have felt 
you needed to work with that you currently don't really have 
the authority and the ability to do so?
    Mr. McGurk. No, ma'am. Each of the sectors have been very 
responsive and receptive to coordinating, sharing information, 
and receiving information from the Department.
    Ms. Richardson. Okay. Within your voluntary public-private 
partnerships, how many would you say are corporation size, mid-
size, small business, if you could give a percentage of who you 
work with.
    Mr. McGurk. It is actually very broad. We work with Fortune 
One companies, the large carriers, and the large manufacturing 
facilities here in the United States, all the way down to small 
companies which employ only seven employees.
    Ms. Richardson. But of those that you work with, what would 
you say would the percentage be? So would you say corporations, 
you spend 50 percent of your time and small business 10 
percent? What is kind of a percentage?
    Mr. McGurk. It is more of a broad range. I would say that 
we spend 100 percent of our time within each of the sectors 
focusing on, from the small community up to the large 
community. In the case of developing mitigation strategies and 
plans, we are looking more for the subject matter expertise, 
not necessarily at what level they reside. So we do try to 
focus across the board a very broad spectrum.
    Ms. Richardson. Okay. How many approximately in your 
private sector have you worked with, approximately? One 
thousand? Two thousand?
    Mr. McGurk. It is very hard to quantify, ma'am. I would 
have to get back with you on that type of number.
    During the last mitigation development process, we had over 
50 companies from six sectors represented full time working on 
mitigation plans.
    Ms. Richardson. Okay, so if you could supply to the 
committee the different levels that you worked with and 
approximately how many. So, for example, of corporations, if 
out of the 2,000 you have worked with, 1,500 are major Fortune 
500 companies, then say that. If 10 percent are small business, 
say that.
    Mr. McGurk. Yes, ma'am.
    Ms. Richardson. My last question. In the event of a 
cyberattack, who is in charge?
    Mr. McGurk. In the event of a cyberattack, ma'am, the 
President is in charge. The President has designated the 
Secretary of Homeland Security as the senior Federal official 
for incident response and incident coordination.
    Ms. Richardson. Do you believe that is understood with the 
Pentagon and NSA and so on?
    Mr. McGurk. I believe that the Pentagon and NSA understand 
that the President is in charge.
    Ms. Richardson. If something were to happen in the private 
sector, what would be the response?
    Mr. McGurk. The response, in accordance with the National 
Cyber Incident Response Plan, would be a coordination effort on 
the part of the Department, working with those private-sector 
entities or those individual companies to mitigate the risk and 
prevent it from cascading into other areas.
    Ms. Richardson. Thank you very much.
    Mr. McGurk. Thank you, ma'am.
    Ms. Richardson. I yield back.
    Mr. Lungren. Thank you.
    The gentleman from Pennsylvania is recognized for 5 
minutes.
    Mr. Marino. Thank you, Mr. Chairman.
    I have a question for each of you. I have 5 minutes, so we 
have about a minute and 15 seconds for each, so I will start 
with Dr. Amoroso.
    Can we really stay ahead of the criminals?
    Mr. Amoroso. Well, historically, we haven't, and we 
probably should assume that we won't. I mean, it makes sense to 
take a pretty conservative view as we build out our protection 
approaches. So I think the answer to that is ``no.''
    Mr. Marino. Because they are going to have the information 
that--even if the Government puts out there that the citizens 
are aware of, and they are always trying to manipulate and 
massage that. So we have to come up with a system whereby we 
try to step ahead of them, if that is possible.
    Mr. Amoroso. Right.
    Mr. Marino. Attorney Carlin, I am an attorney, too. I was a 
prosecutor for 18 years. So I know, as the doctor said, once 
you get some attorneys involved, particularly at the 
bureaucratic level, it can be a real catastrophe. But what 
legal issues do you think we face from a liability standpoint 
if the Government gets involved and, for example, mandates?
    Ms. Carlin. First, I am a reformed lawyer. So I am not 
actively practicing, but I am in inactive status.
    I think there are plenty of legal and policy issues that 
have not been sorted through, and I think that is part of what 
we would contemplate, including in this information-sharing 
protocol or framework exercise, including, quite obviously, 
privacy issues.
    A couple of points, just to add them to your consideration.
    One is, when we talk about information sharing, we mean 
that bilaterally. So there is an equivalent interest on the 
part of Government in having private industry disclose events 
as they are happening in our respective companies as there is 
on the part of private industry in having the Government 
disclose when they are, frankly, working on something that we 
may not be aware of.
    The emphasis that I have placed on contextual information I 
think is part of the secret sauce of being more proactive on a 
going-forward basis. The signatures, the technical information 
is obviously critical to shutting down that board, that 
opportunity for malicious behavior. But the context is what 
allows us to plan for the next attack.
    It is not that the same person will do it in the same way, 
attacking the same server. It is extrapolating from the 
experience that we have had to contemplate other comparable 
vulnerabilities and to get ahead in that way by shutting them 
down.
    Mr. Marino. All right. Thank you.
    If you haven't noticed, I am taking advantage of your 
educational backgrounds. Mr. Cauley, you have an MBA. Does a 
company or the Government, for that matter, balance the 
implementation, the cost to the risk before making any 
decision?
    Mr. Cauley. Thank you for the question. I am really an 
engineer, but the MBA was incidental.
    We really strive to do that both at NERC, as the industry 
organization, as well as across the industry to assess risk 
priorities. We deal with hurricanes and other natural disasters 
as well as these emerging new risks. So it is always a 
challenge to make the greatest value of the customers', the 
rate payers' investment in reliability and a reliable supply of 
electricity.
    So I think cost is always a consideration, and I think 
maximizing value against the risks that we are facing is always 
something that we are looking at.
    Mr. Marino. Okay. Thank you.
    Mr. McGurk, taking advantage of your psychology background, 
can we really persuade the public in business and, for that 
matter, as a last resort, the Government to take the steps 
necessary to effectuating protection against ourselves? What do 
we need to do to persuade people like myself, not only the 
computer in my home but the computer in my office and the small 
business that my wife has?
    Mr. McGurk. Thank you for the question, sir.
    I would like to also add on to what Mr. Cauley had said, is 
that when we are evaluating risk--and in the Department we 
define risk as threat, vulnerability, and consequence--each of 
those variables is relevant. Then you need to divide that over 
cost. So we have to identify where can we get the most benefit 
or the most gain by addressing the vulnerabilities, the 
threats, or the consequences.
    So making it actionable for the asset owners and operators 
of the general public and making it understandable, taking all 
the ones and zeros out and putting it in a language that people 
can readily understand, helps us convey that message. Getting 
away from the geek speak and getting into the real speak is 
what our primary focus is.
    Mr. Marino. Good. Thank you.
    I yield.
    Mr. Lungren. The other gentleman from Pennsylvania, Mr. 
Meehan, is recognized for 5 minutes.
    Mr. Meehan. Thank you, Mr. Chairman.
    I want to thank the panel for their testimony. I apologize, 
because of the nature of our work, we aren't always able to be 
here for the full time. But I did take the time to read each of 
your written testimonies last night. As a former prosecutor, 
United States Attorney, I am very interested in these issues.
    Let me just ask, stepping back, because, Mr. Amoroso, I was 
struck by some of your comments. In our effort to try to assure 
that both the private sector and the Government are working 
together in this area of assuring cybersecurity, you know, you 
have some testimony that says the initiatives don't take full 
advantage of the portfolio of managed services offered by many 
private-sector network service providers. You were discussing 
the Federal Government.
    Just the panel, in essence, we have the National 
Infrastructure Protection Plan. It was put in place to pull the 
Federal Government together with the private sector to use all 
of our assets to try to do, you know, protect this 
infrastructure. What should we be doing? Is it working? What is 
not working?
    Mr. Amoroso, I want to ask you specifically because you 
made this note. If other panelists in my remaining 3 minutes 
and 40 seconds have observations, I would like to hear from you 
as well.
    Mr. Amoroso. Well, most of the ideas are great. It is just 
the technology and infrastructure changes so quickly that it is 
hard to keep up.
    For example, we talk about air gap. My company is in the 
business of using the air to connect systems. So it is almost--
it doesn't make a lot of sense to even talk architecturally 
about something that made a lot of sense 10 years ago. I spent 
a lot of time trying to air gap systems in AT&T. We used to 
have two jacks in the wall; and, depending on what network you 
were on, you would sort of air gap between this and that.
    In 2011, that makes no sense. Equipment comes built in with 
3G, 4G connectivity. You have to change all the assumptions.
    So the problem is, private sector, you know, through 
competition and through mobility and cloud and all these 
exciting things that we use to try to generate interest amongst 
customers to buy our services, we are moving at a rate that is 
almost impossible to keep up with from the perspective of kind 
of the way we legislate and regulate. It takes a long time to 
debate these issues. By the time you have debated and come to 
some agreement on something it is largely irrelevant. So we 
really have to come to a different approach.
    Mr. Meehan. Well, how do you do that? How do you police 
that? Because, in essence, you are right. The technology is 
always going to be ahead. The only thing is that the cyber 
sleuths are trying to catch up with the technology. That may be 
that you are one step ahead, but, as Mr. Marino pointed out, 
there is a lot of people that are still using simplistic 
systems that are being victimized as well.
    Mr. Amoroso. It is tricky. You have to build forward-
looking constructs and then let them work the way you set them 
up to work without sort of worrying about every little thing. 
Every day-to-day detail has to be allowed to track technology 
growth and innovation.
    So, you know, the comment I made earlier about signatures, 
you know, the fact that anytime some information sharing is 
posed, at least in our company, there is a big debate about 
each and every situation. I think what we need is a broader 
framework that allows us a little bit more leeway so that if 
technology goes in this direction or that direction or 
whatever, the framework would be broad enough to allow us to be 
flexible. I think we have been too inflexible in that regard.
    Mr. Meehan. Thank you.
    Ms. Carlin, did you have a thought?
    Ms. Carlin. I just wanted to add one comment. I am not a 
native technologist, by the way, so maybe it gives me a 
different perspective.
    I don't think it is all about technology and sort of trying 
to keep apace with the criminal and the nation state elements 
and such. I think there is a large component that relates to 
behavior and practices, and I will give you one quick example.
    As we have seen in all these incidents, the criminals are 
increasingly targeting what we might call target-rich 
environments. You see that in all kinds of respects. You see it 
at the exchange level. You saw it in the RSA incident. You see 
it in Epsilon. Why Epsilon? Because it was a warehouse of all 
of these other connections and such.
    So on the practices level, there are many opportunities for 
improvement, and I will share one with you. We have privileged 
users--so-called privileged users in our environment who are 
often IT administrators who have much broader access to data 
and applications than the average employee would have. We have 
significantly tightened standards around behavior by IT 
administrators, how they access the network, how they change 
their passwords, how frequently, password sharing. I could give 
you a litany of practices.
    So I think let's not put all of our eggs in the--we need 
the new-age technology. That is part of it.
    Mr. Meehan. Thank you, Mr. Chairman.
    Mr. Lungren. Thank you.
    I want to thank the witnesses. The reason why we were able 
to stay here this long is they changed the votes on the floor, 
and now we have a series of votes. So I thank you for being 
with us, and we were able to get through the panel and not have 
to keep you here in suspense.
    One of the things I would just ask is that I hope that you 
would continue to work with us. We don't, obviously, have all 
the answers. We have got some of the questions. We probably 
don't have all the questions. Perhaps the overarching question 
we have is: How do we make it work better? That is, the 
Government/private-sector partnership. It is a continuing 
question that is going to bedevil us, but we need to look at it 
and work with it, and you folks have helped us today. But I 
hope we could ask you to help us in the future as well.
    We thank you very much for your testimony. It has been 
very, very helpful. There may be some questions offered by some 
of the Members of the panel in writing to you; and if that is 
done, we would hope that you would respond to that to help us.
    Again, your full statements are made a part of the record.
    We thank you for being with us, and this hearing is 
adjourned.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
